No.
IN THE

Supreme Court of the United States
___________

WILLIAM ANDREOLI ET AL.,
v.

Petitioners,

YOUNGEVITY INTERNATIONAL CORP., ET AL.,
Respondents.
___________
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
___________
PETITION FOR A WRIT OF CERTIORARI
___________
JONATHAN O. HAFEN
Counsel of Record
JONATHAN R. SCHOFIELD
MICHAEL S. ANDERSON
STEPHEN C. MOURITSEN
CYNTHIA D. LOVE
PARR BROWN GEE & LOVELESS
101 South 200 East, Suite 700
Salt Lake City, Utah 84111
(801) 532-7840
jhafen@parrbrown.com
Counsel for Petitioners

i
QUESTION PRESENTED
Whether federal courts of appeals lack interlocutory appellate jurisdiction under 28 U.S.C. § 1291 and
the collateral order doctrine to review the denial of a
motion to strike under a state anti-SLAPP statute, as
the Second Circuit has held, or whether federal appellate courts have such jurisdiction as the Fifth and
Ninth Circuits have held.

ii
PARTIES TO THE PROCEEDING AND
RULE 29.6 STATEMENT
Petitioners and Appellees below are William Andreoli; Blake Graham; Todd Smith; Total Nutrition
Team d/b/a TNT; Andrew Vaughn; Wakaya Perfection,
LLC; Dave Pitcock; Patti Gardner; Brytt Cloward.
Respondents and Appellants below are Youngevity
International Corp.; Joel D. Wallach; Steve Wallach;
Michelle Wallach, and Dave Briskie.
Petitioner Total Nutrition Team; and Wakaya Perfection, LLC; and state that they do not have parent
companies, and no publicly held company owns ten
percent or more of their stock.

iii
TABLE OF CONTENTS

Page
QUESTION PRESENTED .......................................... i
PARTIES TO THE PROCEEDING AND RULE 29.6
STATEMENT .......................................................... ii
OPINIONS BELOW ................................................... 1
JURISDICTION.......................................................... 1
STATUTORY PROVISIONS INVOLVED ................. 1
DIRECTLY RELATED CASES .................................. 1
STATEMENT.............................................................. 2
REASONS FOR GRANTING THE PETITION ......... 7
I.
THERE IS A DIRECT AND ACKNOWLEDGED SPLIT
OF AUTHORITY AMONG THE CIRCUIT COURTS .... 8
II.
THIS CASE RAISES AN IMPORTANT QUESTION
CONCERNING THE SCOPE OF THE COLLATERAL
ORDER DOCTRINE AND THE FINAL JUDGMENT
RULE. .............................................................. 15
III.
THE NINTH CIRCUIT’S DECISION BELOW IS IN
CONFLICT WITH THIS COURT’S PRECEDENTS AND
IS INCORRECT .................................................. 17
A.
Orders Denying a Motion to Strike under
an Anti-SLAPP Statute Are Not Final Decisions ............................................................. 17
B.
Orders Denying Anti-SLAPP Motions Are Intertwined with, and Not Separate from, the
Merits of the Underlying Case ...................... 18
C.
Orders Denying Anti-SLAPP Motions Are Not
Effectively Unreviewable After Final Judgment ................................................................ 20
IV.
THIS CASE IS AN IDEAL VEHICLE FOR REVIEW OF
THE APPLICATION OF THE COLLATERAL ORDER
DOCTRINE TO ANTI-SLAPP MOTIONS ............. 21
CONCLUSION .............................................................. 22

iv
TABLE OF APPENDICES
PAGE(S)
APPENDIX A: Answer & Counterclaim (Excerpts),
Youngevity International, Corp. v. Smith,
No. 16-CV-704-L-JLB (S.D. Cal. Feb. 23, 2017) ..... 1a
APPENDIX B: Counterclaim Defendants’ Motion to
Strike (Cal. Code Civ. Proc. § 425.16) and Motion to
Dismiss Pursuant to FRCP 12(b)(6),
No. 16-CV-704-L-JLB (S.D. Cal. Mar. 9, 2017) ... 50a
APPENDIX C: Order Denying and Granting in Part
Counterclaim Defendants’ Anti-SLAPP Motion to
Strike and Motion to Dismiss,
No. 16-CV-704-L-JLB (S.D. Cal. Dec. 13, 2017) ... 55a
APPENDIX D: Order Granting Motion for Partial
Stay,
No. 16-CV-704-L-JLB (S.D. Cal. Jul. 16, 2018).... 91a
APPENDIX E: Opinion of the U.S. Court of Appeals
for the Ninth Circuit (Jan. 24, 2019) ................... 94a
APPENDIX F: Order Denying Rehearing En Banc
(April 1, 2019) ........................................................ 98a
APPENDIX G: 28 U.S.C. § 1291 ............................. 99a
APPENDIX H: Cal. Code Civ. Proc. § 425.16 ....... 100a

v
TABLE OF AUTHORITIES
PAGE(S)
CASES
Abney v. United States,
431 U.S. 651 (1977) ................................................. 18
Ashcroft v. Iqbal,
556 U.S. 662 (2009) ................................................... 3
Batzel v. Smith,
333 F.3d 1018 (9th Cir. 2003) ......................... passim
Cohen v. Beneficial Industrial Loan Corp.,
337 US 541 (1948) ........................................... passim
Coopers & Lybrand v. Livesay,
437 U. S. 463 (1978) ........................................ passim
DC Comics v. Pac. Pictures Corp.,
706 F.3d 1009 (9th Cir. 2013) ................................. 14
Digital Equipment Corp. v. Desktop Direct, Inc.,
511 U.S. 863 (1994) ....................................... 3, 16, 20
Ernst v. Carrigan,
814 F.3d 116 (2d Cir. 2016) ................................... 8, 9
Flanagan v. United States,
265 U.S. 259 (1984). ................................................ 20
Gulfstream Aerospace Corp. v. Mayacamas Corp.,
485 U.S. 271 (1988) ................................................. 17
Henry v. Lake Charles Am. Press, L.L.C.,
566 F.3d 164 (5th Cir. 2009) ......................... 9, 10, 11

vi
Hyan v. Hummer,
825 F.3d 1043 (9th Cir. 2016) ................................. 12
Johnson v. Jones,
515 U.S. 304 (1995) ..................................... 10, 11, 16
Microsoft Corp. v. Baker,
137 S.Ct. 1702 (2017) ................................................ 2
Midland Asphalt Corp. v. United States,
489 U. S. 794 (1989) .................................................. 3
Mitchell v. Forsyth,
472 U.S. 511 (1985) ................................................. 18
Mohawk Indus., Inc. v. Carpenter,
558 U.S. 100 (2009) ............................................. 3, 16
Planned Parenthood Federation of America, Inc. v.
Center for Medical Progress,
890 F.3d 828 (9th Cir. 2018) ........................... passim
Richardson-Merrell, Inc. v. Koller,
472 U.S. 424 (1985) ................................................. 19
United States v. Ryan,
402 U.S. 530 (1971) ................................................. 20
Swint v. Chambers County Comm’n,
514 U.S. 35 (1995) ..................................................... 2
Travelers Cas. Ins. Co. of Am. v. Hirsh,
831 F.3d 1179 (9th Cir. 2016) ..................... 13, 19, 21
United States v. MacDonald,
435 U.S. 850 (1978) ................................................. 18

vii
Van Cauwenberghe v. Biard,
486 U.S. 517 (1988) ................................................. 19
Will v. Hallock,
545 U.S. 1103 (2005) ............................................... 16
Will v. Hallock,
546 U.S. 345 (2006) ......................................... passim
STATUTES
12 V.S.A. § 1041(E) .................................................... 11
28 U.S.C. § 1254(1) ...................................................... 1
28 U.S.C. § 1291 ................................................. passim
Cal. Civ. Proc. Code § 425.16....................................... 1
Cal. Civ. Proc. Code § 425.16(b)(1)-(3) ...................... 11
Cal. Civ. Proc. Code § 425.17(e) ................................ 15
OTHER AUTHORITIES
15A Wright & Miller, Federal Practice & Procedure
§ 3911.1, at 372 ....................................................... 18

PETITION FOR A WRIT OF CERTIORARI
Petitioners respectfully petition for a writ of certiorari to review the judgment of the United States Court
of Appeals for the Ninth Circuit.
OPINIONS BELOW
The opinion of the court of appeals is reproduced at
Pet. App. 94a–97a. The district court’s opinion is reproduced at Pet. App. 55a–90a.
JURISDICTION
The judgment of the court of appeals was entered
on January 24, 2019. Pet. App. 94a–97a. The court of
appeals denied a timely petition for rehearing on
April 1, 2019. Pet. App. 98a. The jurisdiction of the
court below was premised on 28 U.S.C. § 1332. The jurisdiction of this Court is invoked under 28 U.S.C.
§ 1254(1).
STATUTORY PROVISIONS INVOLVED
The text of 28 U.S.C. § 1291, is reproduced at Pet.
App. 99a. The text of Cal. Civ. Proc. Code § 425.16 is
reproduced at Pet. App. 100a–103a.
DIRECTLY RELATED CASES
There are no directly related cases as defined in
Rule 14(1)(b)(iii).

2
STATEMENT
1. The interlocutory appellate jurisdiction of federal courts of appeals is constrained by statute. Under
28 U.S.C. § 1291, courts of appeals have “jurisdiction
of appeals from all final decisions of the district courts
of the United States, . . . except where a direct review
may be had in the Supreme Court.” (emphasis added).
This Court has held that a “final decision” is typically
one in which “a district court disassociates itself from
a case.” Swint v. Chambers County Comm’n, 514 U.S.
35, 42 (1995). And this Court has repeatedly and consistently “resisted efforts to stretch § 1291 to permit
appeals of right that would erode the finality principle
and disserve its objectives.” Microsoft Corp. v. Baker,
137 S.Ct. 1702, 1712 (2017).
In Cohen v. Beneficial Industrial Loan Corp., 337
U.S. 541, 546 (1948), this Court determined that Section 1291 applied not only to judgments that terminate
an action, but also to a small class of collateral rulings
that “finally determine claims of right separable from,
and collateral to, rights asserted in the action, too important to be denied review and too independent of the
cause itself to require that appellate consideration be
deferred until the whole case is adjudicated.” This
Court later refined the collateral order doctrine in
Coopers & Lybrand v. Livesay, 437 U. S. 463 (1978)
holding that to come within the doctrine’s ambit an order must satisfy each of three conditions: it must
(1) “conclusively determine the disputed question,”
(2) “resolve an important issue completely separate
from the merits of the action,” and (3) “be effectively
unreviewable on appeal from a final judgment.” 437
U. S. at 468 (footnote omitted).

3
While recognizing the availability of interlocutory
review under the collateral order doctrine, this Court
has also acknowledged that “the collateral-order doctrine may have expanded beyond the limits dictated by
its internal logic and the strict application of the criteria set out in Cohen.” Ashcroft v. Iqbal, 556 U.S. 662,
672 (2009). The Court has further repeatedly stressed
that it is a “‘narrow’ exception” that must “never be allowed to swallow the general rule that a party is
entitled to a single appeal, to be deferred until final
judgment has been entered.” Digital Equipment Corp.
v. Desktop Direct, Inc., 511 U.S. 863, 868 (1994). The
Court has further stated that the application of the
analysis set forth in Cohen must be “stringent.” Midland Asphalt Corp. v. United States, 489 U. S. 794, 799
(1989). This is because piecemeal appellate review in
advance of a final judgment “undermines ‘efficient judicial administration’ and encroaches upon the
prerogatives of district court judges, who play a ‘special role’ in managing ongoing litigation.” Mohawk
Indus., Inc. v. Carpenter, 558 U.S. 100, 106 (2009).
Consequently, the Court has held that “[t]he justification for immediate appeal must . . . be sufficiently
strong to overcome the usual benefits of deferring appeal until litigation concludes.” Id. In addition, the
Court has made clear that it will not evaluate the application of the collateral order doctrine on an
individualized basis, but must instead determine
whether the doctrine applies to an “entire category to
which a claim belongs.” Digital Equipment, 511 U.S.
at 868 (emphasis added).
The category of orders at issue in this case—denials
of motions to strike under state anti-SLAPP statutes—
do not warrant the application of the collateral order

4
doctrine because, under Cohen, they do not finally determine claims of right, are not separable from—or
collateral to—rights asserted in the action, and are not
effectively unreviewable upon entry of final judgment.
2. Petitioners and Respondents are network-marketers—companies and their affiliates that sell and
distribute products through a distribution chain of independent sales agents, generally referred to as
distributors. Pet. App. 7a. Under a network-marketing
model, each distributor recruits other distributors to
join his or her organization, building a network of
“down-line” distributors, with each distributor purchasing products supplied by the company and selling
those products to customers. Id.
It is common for distributors to work for multiple
network-marketing companies, and Respondent,
Youngevity’s Policies and Procedures expressly allowed its distributors to do so. Id. at 8a. However,
cross-recruiting—recruiting certain members of one’s
organization into another company—is usually contractually prohibited. Id. at 9a. The individual
Petitioners were all either distributors or employees of
Youngevity for a number of years. Id. at 3a. Petitioner,
Todd Smith, decided to leave Youngevity and form his
own business, Wakaya Perfection. Id. A number of the
individual Petitioners joined Smith in his new venture, either as distributors or employees. Id.
Petitioners alleged that upon learning of the existence of Wakaya, Respondents terminated the
distributorships of any Youngevity distributor suspected of being affiliated with Wakaya, even though
dual affiliation was permitted under Youngevity’s policies. Id. at 3a–4a. Petitioners further allege that

5
Respondents then made a series of false and defamatory statements, including to Youngevity’s network of
distributors, the larger network-marketing community, and other third parties. Id. at 22a–28a; 40a–44a.
Respondents publicly accused Petitioners of stealing
Youngevity’s proprietary information, money, and
other property in order to build Wakaya. Id. And Respondents also publicly accused Petitioners of
engaging in widespread cross-recruiting and raiding of
Youngevity’s distributor networks. Youngevity then
filed a complaint (the “Verified Complaint”) in the in
the United States District Court for the Southern District of California, alleging, among other things that
Petitioners had breached their contracts with
Youngevity, breached their fiduciary duty, and violated the Lanham Act.
Petitioners brought counterclaims for defamation,
false light, business disparagement, and tortious interference and sought redress for the harms caused by
Respondents’ defamation of Petitioners. Id. at 40a–
44a. Petitioners alleged six broad categories of Respondents’ speech as defamatory: (1) Youngevity’s
public dissemination of the Verified Complaint and the
defamatory statements therein, together with other
filings in the litigation below; (2) Youngevity’s press
release purporting to summarize the Verified Complaint
but
separately
defaming
Petitioners;
(3) Respondent Joel Wallach’s public statements to
Youngevity distributors repeating Respondents’ false
defamatory statements; (4) Respondent, Michelle Wallach’s alleged fabrication of emails suggesting
Petitioner, Barb Pitcock was engaged in cross-recruiting; (5) an email from Respondent, Steve Wallach, to
Youngevity’s entire distributor network; and (6) Respondents’ creation of the website that included

6
defamatory statements. Id. Petitioners specifically alleged that Respondents’ defamatory statements were
intended to protect Youngevity’s business interests by
hampering the launch of a perceived competitor, Wakaya, and to deter Youngevity distributors from
joining Wakaya. Id. at 32a.
Respondents sought to strike Petitioners’ defamation counterclaims on the basis that their public
statements were privileged under California’s litigation and fair-report privileges. Id. at 50a–54a. The
District Court denied Respondents’ anti-SLAPP motion based on the District Court’s examination of the
record and the court’s determination that the alleged
defamatory statements constituted commercial
speech—and were therefore exempt from the antiSLAPP statute—and that the remaining statements
were either not privileged or that the evaluation of
these statements required further factual development.
On July 16, 2018, the District Court entered a partial stay, halting the adjudication of Petitioners’
counterclaims one through four, six, seven, and nine
through twelve. Id. at 93a. The District Court denied
all pending motions for summary judgment as to these
claims as premature and granted leave to the parties
to resubmit once Respondents’ interlocutory appeal
had been resolved. Id. The adjudication of these counterclaims before the District Court remains stayed.
In the opinion below, the Ninth Circuit panel
acknowledged that, as a general matter, the court has
jurisdiction to review denials of an anti-SLAPP motion’s under Ninth Circuit precedent. Id. at 95a (citing
Batzel v. Smith, 333 F.3d 1018, 1024 (9th Cir. 2003)).
On this basis the court reviewed and partially reversed

7
the District Court’s denial of the anti-SLAPP motion,
including portions of Petitioner’s counterclaim based
on the republication of the Verified Complaint and a
press release extensively summarizing the complaint.
Id. at 96a. In reaching this conclusion, the court was
required to analyze the merits of Respondent’s claim
that the California litigation privilege applies to the
alleged defamatory statements in the Verified Complaint and press release, and was required to
determine that the people to whom the press release
was directed were those with “a substantial interest in
the outcome of the pending litigation” and not merely
“the general public.” Id. at 96a–97a. In short, the court
below was forced to squarely address the merits of the
case—in contravention of this Court’s holding in Cohen and the narrow collateral order doctrine it created.
The Ninth Circuit panel’s holding below deepens
the already existing split between the Ninth and Fifth
Circuits on the one hand and the Second Circuit on the
other. It serves to compound the uneven application of
federal law. As in this case, the continued interlocutory review of denials of anti-SLAPP motions serves as
nothing more than a costly detour for the litigants and
runs counter to the “narrow and selective” application
of the collateral order doctrine contemplated by this
Court’s precedents. See Will v. Hallock, 546 U.S. 345,
350 (2006).
REASONS FOR GRANTING THE PETITION
Congress enacted Section 1291 in order to limit the
appellate jurisdiction of federal courts of appeals to the
final decisions of lower courts. While this Court has
recognized a narrow exception to Section 1291 to allow
interlocutory appellate review of certain collateral orders, the Court has explicitly stated that the category

8
of cases that come within the ambit of the collateral
order doctrine must be “small” and that the application of the collateral order doctrine must be
“stringent.” Federal courts are sharply divided on the
question of whether a denial of a motion to strike under a state anti-SLAPP statute may properly fall
within the scope of the collateral order doctrine. The
Second Circuit has made clear that such orders do not
meet the stringent requirements of Cohen and its progeny, while the Fifth and Ninth Circuit maintain that
interlocutory review of such orders is appropriate. This
is an important question with serious consequences for
litigants as demonstrated in the present case where
the piecemeal adjudication and interlocutory appeal of
the denial of an anti-SLAPP motion has led to a significant delay in the proceedings below. The Court should
therefore grant the petition, reverse the Ninth Circuit’s judgment, and restore the collateral order
doctrine to the narrow exception to Section 1291 that
is was originally intended to be.
I. THERE IS A DIRECT AND ACKNOWLEDGED SPLIT OF
AUTHORITY AMONG THE CIRCUIT COURTS

There is no dispute that a split of authority exists
among the Circuit Courts of Appeals with respect to
the interlocutory reviewability of the denial of antiSLAPP motions under 28 U. S. C. §1291 and the proper
application of the collateral order doctrine to these motions. The Second Circuit recently held that the court
“lack[s] appellate jurisdiction to consider [a] district
court’s order passing on the merits of the defendants’
anti-SLAPP motions to strike.” Ernst v. Carrigan, 814
F.3d 116, 119 (2d Cir. 2016). By contrast, the Fifth and
Ninth Circuit Courts of Appeals have both recently
made clear that, in their view, federal appellate courts

9
have jurisdiction to review the denial of an antiSLAPP motion on an interlocutory basis under the collateral order doctrine. Planned Parenthood Federation
of America, Inc. v. Center for Medical Progress, 890
F.3d 828 (9th Cir. 2018); Henry v. Lake Charles Am.
Press, L.L.C., 566 F.3d 164, 174-75 (5th Cir. 2009).
This split of authority leads not only to a lack of uniformity in the application of Section 1291 in federal
courts; it also forces parties like Petitioners to halt
their litigation in order for an appellate court to review
the merits of claims on a piecemeal basis before the
proceedings in the case below have reached a final
judgment. This is a direct contravention of the requirement for final judgment under 28 U. S. C. §1291 and
the purposefully narrow scope of the collateral order
doctrine.
In Ernst v. Carrigan, 814 F.3d 116 (2d Cir.
2016), the Second Circuit evaluated the denial of an
anti-SLAPP motion premised on Vermont’s antiSLAPP statute—which is based on the California statute at issue in the opinion below. Id. at 119. In Ernst,
the plaintiffs alleged that the defendants had circulated a letter to defendants’ neighbors stating that the
defendants had falsified information, engaged in harassment, lied, and abused the legal process for the
extortive purposes. Id. at 118. The district court denied in part the anti-SLAPP and declined to certify the
opinion for interlocutory appeal. Id.
On appeal, the Second Circuit held that “[a]n appeal from an order passing on the merits of a special
motion to strike filed under Vermont’s anti-SLAPP
statute does not fulfill the second requirement for an
appealable collateral order: that it ‘resolve an important issue completely separate from the merits of

10
the action.’” Id. at 119 (quoting Will v. Hallock, 546
U.S. 345, 349 (2006)). The court reasoned that an issue
is completely separate from the merits only if it is “‘significantly different’ and ‘conceptually distinct’ from
the ‘fact-related legal issues that likely underlie the
plaintiff’s claim on the merits.’” Id. (quoting Johnson
v. Jones, 515 U.S. 304, 314 (1995)). The Second Circuit
further noted that, despite claims to the contrary,
courts “necessarily evaluate in detail the merits of a
plaintiff’s claim when considering a defendant’s special motion to strike.” Id. at 119-20. Quoting language
from the Vermont anti-SLAPP statute that is similar
to that of the California anti-SLAPP statute at issue
below, the Second Circuit observed that the “antiSLAPP statute instructs the court to consider the
‘pleadings and supporting and opposing affidavits’
when weighing whether the plaintiff has shown that
the defendant’s conduct or statement was ‘devoid of
any reasonable factual support’ or ‘any arguable basis
in law’ and ‘caused actual injury to the plaintiff.’” Id.
at 120 (quoting 12 V.S.A. § 1041(e)).1 This sort of analysis, the court reasoned, cannot be reasonably
characterized as “completely separate from the merits”
of an action. Id. (quoting Will, 546 U.S. at 349).
The Second Circuit acknowledged that “[o]ther
courts to consider the question have concluded otherwise.” Id. at 120 (citing, among others, Batzel v. Smith,
333 F.3d 1018 (9th Cir. 2003) and Henry v. Lake
Charles Am. Press, L.L.C., 566 F.3d 164, 175, 177 (5th
Compare Cal. Civ. Proc. Code § 425.16(b)(1)-(3) (requiring courts
to evaluate whether “the plaintiff has established that there is a
probability that the plaintiff will prevail on the claim” by considering “the pleadings, and supporting and opposing affidavits
stating the facts upon which the liability or defense is based”).

1

11
Cir. 2009)). However, the court concluded that “[w]e
prefer to follow the Supreme Court’s holding in Johnson that ‘completely separate from the merits’ means
what it says, that is, ‘conceptually distinct’ and ‘significantly different.’” Id. at 121 (citing Johnson, 515 U.S.
at 314).
In stark contrast to the Second Circuit’s rejection
of interlocutory appellate jurisdiction of anti-SLAPP
motion denials, both the Fifth Circuit and the Ninth
Circuit have held that such jurisdiction exists under
the collateral order doctrine. In Henry v. Lake Charles
Am. Press, L.L.C., 566 F.3d 164, 168 (5th Cir. 2009),
the Fifth Circuit evaluated an anti-SLAPP motion
filed by a defendant, American Press, seeking to dismiss a defamation claim by a defense contractor who
was reported by American Press to have lost a defense
contract allegedly selling contractually noncompliant
fuel. The district court denied American Press’ antiSLAPP motion and American Press appealed. Id. The
Fifth Circuit evaluated the appeal under each of the
factors identified in Cohen—conclusiveness, separateness, and unreviewability—and concluded that “a
district court’s denial of a motion brought under an
anti-SLAPP statute . . . is an immediately-appealable
collateral order.” Id. at 181.
The Ninth Circuit has reached a similar conclusion.
As recently as 2018, the Ninth Circuit reaffirmed the
court’s position that the interlocutory review of denials
of motions to strike pursuant to state anti-SLAPP provisions is not barred by the 28 U. S. C. §1291 and the
collateral order doctrine. In Planned Parenthood Federation of America, Inc. v. Center for Medical Progress,
890 F.3d 828 (9th Cir. 2018), the Ninth Circuit reviewed and affirmed a district court’s denial of an anti-

12
SLAPP motion. In that case, Planned Parenthood sued
the Center for Medical Progress (“CMP”) alleging that
CMP “used fraudulent means to enter their conferences and gain meetings with their staff for the
purpose of creating false and misleading videos that
were disseminated on the internet.” Id. at 831. CMP
moved to dismiss under California’s anti-SLAPP statute and the district court denied the motion. Id. In
reviewing the district court’s decision the Ninth Circuit stated emphatically: “We have jurisdiction to
review the denial of an anti-SLAPP motion under the
collateral order doctrine.” Id. at 832.
This conclusion was challenged in a concurring
opinion by Judge Ronald Gould, who stated that
“[a]lthough the procedure followed in this case to allow
an interlocutory appeal of a denial of an anti-SLAPP
motion is clearly permitted by our past precedent,” the
interlocutory review of anti-SLAPP motions is nevertheless “incorrect,” because it “potentially conflicts
with federal procedural rules, and burdens the federal
courts with unneeded interlocutory appeals.” Id.
at 836 (Gould, J., concurring). Judge Gould further observed that permitting interlocutory review of antiSLAPP denials “leads to an absurd result” in which the
Ninth Circuit “review[s] denials of anti-SLAPP motions but not grants of anti-SLAPP motions, although
the grant of an anti-SLAPP motion is arguably a more
final decision by a district court because it rids the case
of the stricken claims.” Id. (citing Hyan v. Hummer,
825 F.3d 1043, 1047 (9th Cir. 2016) (emphasis added)).
Judge Gould further observed that the “[d]enial of an
anti-SLAPP motion does not meet the normal collateral order standard,” which is targeted toward a
“‘small class’ of rulings that do not conclude litigation,”
because such denials do not “resolve claims separable

13
from the action.” Id. at 836. Rather, the denial of an
anti-SLAPP motion “in fact requires the court to directly assess the merits of Plaintiffs’ complaint.” Id.
at 836. Indeed, California procedure requires courts to
determine not only whether a claim is plausible, but
whether there is a likelihood of success based on the
evidence presented. Id. “That question is inextricably
intertwined with the merits of the litigation.” Id.
In spite of this reasoning, the Ninth Circuit has repeatedly held that the court has jurisdiction to review
interlocutory appeals of anti-SLAPP denials. See Travelers Cas. Ins. Co. of Am. v. Hirsh, 831 F.3d 1179, 118091 (9th Cir. 2016) (“Notwithstanding that the denial of
the anti-SLAPP motion did not give rise to what traditionally would be deemed a final judgment (one
resolving all claims in a suit), our precedents establish
our jurisdiction to consider this appeal.”)2; Batzel v.
Smith, 333 F.3d 1018, 1025-26 (9th Cir. 2003) (“A district court’s denial of a claim of immunity, to the extent
that it turns on an issue of law, is an appealable final

But see, Travelers Cas. Ins. Co. of Am. v. Hirsh, 831 F.3d 1179,
1180-91 (9th Cir. 2016) (Kozinski, C.J., concurring):
2

“Anti-SLAPP motions have the merits painted all over
them. . . . Our experience with these cases has shown us
that they require an exhaustive analysis of the merits.
An exhaustive (and exhausting) detour is exactly what
the final judgment rule is designed to avoid. Interlocutory appeals make it hard for a district court to supervise
a trial. They undermine the efficient administration of
justice when, as here, a meritless appeal stalls a case for
years. And they ask our court to dive headlong into the
merits of a case only to swim back, years later, when it’s
finally appealed from final judgment.” (internal citations
and quotation marks omitted).

14
decision within the meaning of 28 U.S.C. § 1291 notwithstanding the absence of a final judgment. We
therefore have jurisdiction to review the district
court’s denial of [defendants’] anti-SLAPP motion.”)
(citations omitted); DC Comics v. Pac. Pictures Corp.,
706 F.3d 1009, 1015-16 (9th Cir. 2013) (affirming the
appealability of the denial of an anti-SLAPP motion is
“notwithstanding the absence of a final judgment”).
The Ninth Circuit has recognized a narrow exception to its interlocutory jurisdiction over denials of
anti-SLAPP motions. This exception came about when
the California legislature amended its anti-SLAPP
statute, adding a public-interest exception to the right
of immediate appeal of orders denying Anti-SLAPP
motions. Breazeale v. Victim Services, Inc., 878 F.3 758
(9th Cir. 2017) (citing Cal. Civ. Proc. Code § 425.17(e)).
This narrow exception has no bearing on this case because the dispute below was not “brought solely in the
public interest or on behalf of the general public.” Cal.
Civ. Proc. Code § 425.17(e). The existence of this narrow exemption has not prevented the Ninth Circuit
from reaffirming its jurisdiction to review interlocutory appeals of anti-SLAPP motions. Planned
Parenthood, 890 F.3d at 832.
In the opinion below, the Ninth Circuit panel
acknowledged that, as a general matter, the court has
jurisdiction to review denials of an anti-SLAPP motion
under Ninth Circuit precedent. Pet. App. 95a (citing
Batzel v. Smith, 333 F.3d 1018, 1024 (9th Cir. 2003)).
On this basis the court reversed the district court’s decision not to strike portions of Petitioner’s
counterclaim based on the republication of the Verified
Complaint and a press release summarizing the complaint. Id. at 96a. The District Court was required to

15
analyze the merits of Respondent’s claim that the California litigation privilege applies to the alleged
defamatory statements in the Verified Complaint and
press release, and to determine that the people to
whom the press release was directed were all people
with “a substantial interest in the outcome of the pending litigation” and not merely “the general public.” Id.
at 96a–97a. Such issues are inextricably linked with
the merits of the case and the consideration of these
issues through an interlocutory appeal directly contravenes this Court’s holding in Cohen and the narrow
collateral order doctrine it created.
As noted above, the Ninth Circuit panel’s holding
in this case deepens the already existing split between
the Ninth and Fifth Circuit on the one hand and the
Second Circuit on the other. Petitioners have already
been subjected to a costly detour in the adjudication of
their dispute—a detour that is not in keeping with the
narrow and selective application of the collateral order
doctrine contemplated by this Court.
II. THIS CASE RAISES AN IMPORTANT QUESTION
CONCERNING THE SCOPE OF THE COLLATERAL
ORDER DOCTRINE AND THE FINAL JUDGMENT
RULE

This case raises an important question about the
jurisdiction of federal courts of appeals over the interlocutory review of orders denying motions to strike
pursuant to state anti-SLAPP statutes. In the absence
of a clear rule barring the interlocutory review of such
orders, litigants will continue to be compelled to litigate and appeal such orders in a piecemeal fashion and
expend extraordinary resources on costly detours from
the orderly adjudication of their claims.

16
Mindful of these and similar concerns, this Court
has repeatedly and consistently granted petitions for
writ of certiorari in cases reviewing the scope and application of the collateral order doctrine—further
narrowing the class of cases to which the doctrine is
applicable. See, e.g., Mohawk Industries, Inc. v. Carpenter, 558 U.S. 100, 105, n. 1 (2009) (holding that
decisions regarding the availability of attorney-client
privilege rulings do not fall within the collateral order
doctrine because “postjudgment appeals generally suffice to protect the rights of litigants”); Johnson v.
Jones, 515 U.S. 304, 307 (1995) (holding that interlocutory review under the collateral order doctrine was
not available for certain orders denying motions for
summary judgment); Digital Equip. Corp. v. Desktop
Direct Inc., 511 U.S. 863, 865 (1994) (holding that “an
order denying effect to a settlement agreement does
not come within the narrow ambit of collateral orders”); Coopers & Lybrand v. Livesay, 437 U.S. 463,
469 (1978) (recognizing that “an order denying class
certification is subject to effective review after final
judgment,” and thus “the collateral-order doctrine is
not applicable”). This Court has even asked the parties
to address the collateral order doctrine sua sponte. See
Will v. Hallock, 545 U.S. 1103 (2005) (granting certiorari; “[i]n addition to the Question presented by the
petition, the parties are directed to brief and argue the
following Question: ‘Did the Court of Appeals have jurisdiction over the interlocutory appeal of the District
Courts’ order. . . .”) vacated by 546 U.S. 345 (2006).
These grants of certiorari illustrate this Court’s
concern with the expansion of the collateral order doctrine beyond the narrow, stringent requirements set
forth in Cohen and the appropriateness of a grant of
certiorari in this case.

17
III. THE NINTH CIRCUIT’S DECISION BELOW IS IN
CONFLICT WITH THIS COURT’S PRECEDENTS AND
IS INCORRECT

The Ninth Circuit’s purported exercise of jurisdiction over Respondents’ appeal of the denial of their
anti-SLAPP motion was incorrect and in conflict with
the precedents of this Court. This Court has made
clear that interlocutory review under the collateral order doctrine is only available for a small class of
collateral rulings that “finally determine claims of
right separable from, and collateral to, rights asserted
in the action, too important to be denied review and
too independent of the cause itself to require that appellate consideration be deferred until the whole case
is adjudicated.” Cohen v. Beneficial Industrial Loan
Corp., 337 U.S. 541, 546 (1948). And this Court has
previously insisted that the application of these factors
must be stringent. Orders denying motions to strike
pursuant to state anti-SLAPP statutes to not satisfy
any of these criteria.
A. Orders Denying a Motion to Strike under
an Anti-SLAPP Statute Are Not Final Decisions
This Court’s decision in Cohen states that interlocutory review under the collateral order doctrine is only
available for final orders—orders that “conclusively
determine the disputed question,” Gulfstream Aerospace Corp. v. Mayacamas Corp., 485 U.S. 271, 276
(1988) (quoting Coopers & Lybrand v. Livesay, 437
U.S. 463, 468 (1978)), and orders that constitute a
“fully consummated decision.” Cohen, 337 U.S. at 546.
A class of orders may fall under this category if it constitutes “a complete, formal and, in the trial court, a

18
final rejection” of the claim. United States v. MacDonald, 435 U.S. 850, 858 (1978) (quoting Abney v. United
States, 431 U.S. 651, 659 (1977)). Orders are final if
there are “simply no further steps that can be taken in
the District Court.” Mitchell v. Forsyth, 472 U.S. 511,
527 (1985) (quoting Abney, 431 U.S. at 659). Orders
are also conclusive if “nothing in the subsequent
course of the proceedings in the district court that can
alter the court’s conclusion.” Mitchell, 472 U.S. at 527;
15A Wright & Miller, Federal Practice & Procedure §
3911.1, at 372 (2d ed.) (there is “little justification for
immediate appellate intrusion so long as there is a
plain prospect that the trial court itself may alter the
challenged ruling”).
The denial of a motion to strike an anti-SLAPP
does not conclusively resolve anything. Such a denial
merely leaves to the district court the resolution of the
merits of the plaintiff’s defamation claims. The court
may reconsider the denial of the motion at any point
in the proceeding and the court may dispose of the defamation claims at issue through subsequent
dispositive motion practice. Because there are numerous further steps a court may take that would alter the
challenged ruling, the denial of a motion to strike pursuant to an anti-SLAPP provision does not
conclusively determine the disputed question and
therefore falls outside of the scope of Cohen.
B. Orders Denying Anti-SLAPP Motions Are
Intertwined with, and Not Separate from,
the Merits of the Underlying Case
Interlocutory appeals under the collateral order
doctrine are only appropriate where the order in question is “completely separate from the merits of the
action.” Coopers, 437 U.S. at 468. That requirement

19
cannot be met where the order is “entangled in the
merits of the underlying dispute,” Van Cauwenberghe
v. Biard, 486 U.S. 517, 528 (1988), or where the adjudication of a given motion “involve[s] an assessment of
the likely course of the trial,” Richardson-Merrell, Inc.
v. Koller, 472 U.S. 424, 439 (1985).
This Court has made clear that even if some cases
within the category of cases under review can be reasonably characterized as separate from the merits, and
even where an “appeal might result in substantial savings of time and expense,” this Court “look[s] to
categories of cases, not to particular injustices.” Van
Cauwenberghe, 486 U.S. at 529 (emphasis added). As
a category, district court orders denying motions to
strike pursuant to state anti-SLAPP statutes are necessarily enmeshed the merits of the case.
As noted by the dissenting judge in the Ninth Circuit’s Travelers case, “[a]nti-SLAPP motions have the
merits painted all over them. . . . [And o]ur experience
with these cases has shown us that they require an ‘exhaustive analysis of the merits.’” Travelers, 831 F.3d
at 1185 (Kozinski, J., concurring). Indeed, “[t]he denial
of an anti-SLAPP motion does not resolve important
questions completely separate from the merits, it in
fact requires the court to directly assess the merits of
Plaintiffs’ complaint.” Planned Parenthood, 890 F.3d
at 836 (Gould, J., concurring). This is because, among
other things, the procedures required by state antiSLAPP statutes, like the California statute addressed
below, require courts “not only whether the facts alleged articulate a plausible claim, but also whether
there is probability of success based on plaintiffs’ evidence. That question is inextricably intertwined with
the merits of the litigation.” Id. Because the review of

20
a denial of an anti-SLAPP necessarily involves an
evaluation of the merits of the case, such a review cannot satisfy the requirements of Cohen.
C. Orders Denying Anti-SLAPP Motions Are
Not Effectively Unreviewable After Final
Judgment
A third requirement for the application of the collateral order doctrine to a denial an anti-SLAPP is that
the issue must be “effectively unreviewable on appeal
from final judgment in the underlying action” and that
the rights associated with such orders “would be irretrievably lost.” Digital Equipment, 511 U.S. at 867,
869. Under the proper application of the collateral order doctrine, failure to grant interlocutory review must
“render impossible any review whatsoever,” United
States v. Ryan, 402 U.S. 530, 533 (1971), and “practically defeat the right to any review at all.” Flanagan v.
United States, 465 U.S. 259, 265 (1984).
It is not sufficient that a ruling “may burden litigants in ways that are only imperfectly reparable by
appellate reversal of a final district court judgment.”
Digital Equipment, 511 U.S. at 872. Instead, the appealing party must show that final judgment “would
imperil a substantial public interest” or “some particular value of a high order.” Will, 546 U.S., at 352-353.
While anti-SLAPP provisions serve an important
purpose, the denial of a motion to strike pursuant to
an anti-SLAPP statute is not effectively unreviewable
and the rights the motion seeks to protect are not irretrievably lost if the motion is denied. Indeed, a
reviewing court may be called upon to evaluate the
merits of the same defamation claims adjudicated in

21
the anti-SLAPP motion after final judgment is entered. In this respect, a denial of an anti-SLAPP
motion is no less subject to review than a motion to
dismiss pursuant to Rule 12(b)(6) of the Federal Rules
of Civil Procedure. “[T]he denial of a 12(b)(6) motion
isn’t immediately appealable, and Rule 12 and California’s anti-SLAPP statute serve a common purpose:
eliminating frivolous or bullying claims before the parties pay through the nose in discovery and suffer the
other indignities of a trial.” Travelers, 831 F.3d at 1185
(Kozinski, J., concurring). However, “[n]obody suggests that the district court’s decision denying a
12(b)(6) motion is ‘effectively unreviewable’ at the end
of the case because the defendant has to incur an extra
cost to get there.” Id. Because the denial of an antiSLAPP motion is not unreviewable, such a denial does
not fall under the requirements of the collateral order
doctrine set forth in Cohen.
IV. THIS CASE IS AN IDEAL VEHICLE FOR REVIEW OF
THE APPLICATION OF THE COLLATERAL ORDER
DOCTRINE TO ANTI-SLAPP MOTIONS

This case is an ideal vehicle for reviewing the question of whether 28 U.S.C. § 1291 and the collateral
order doctrine when properly applied allow for the interlocutory review of denials of anti-SLAPP motions.
The Petitioners here have suffered precisely the consequences that the final judgment rule and the narrow,
stringent application of the collateral order doctrine
are intended to prevent—a substantial, costly delay in
the adjudication of their rights and obligations before
the District Court and the piecemeal adjudication and
appeal of their claims. A reversal of the Ninth Circuit’s
decision in this case would create uniformity in the application of federal law to this question and would

22
prevent future litigants from facing the delays, costs,
and the same piecemeal adjudication and appeal of
their claims that Petitioners have been forced to endure
CONCLUSION
For these reasons, the Court should grant the petition.
Respectfully submitted,
JONATHAN O. HAFEN
Counsel of Record
JONATHAN R. SCHOFIELD
MICHAEL S. ANDERSON
STEPHEN C. MOURITSEN
CYNTHIA D. LOVE
PARR BROWN GEE & LOVELESS
101 South 200 East, Suite 700
Salt Lake City, Utah 84111
(801) 532-7840
jhafen@parrbrown.com
Counsel for Petitioners
July 1, 2019

APPENDIX

1a
APPENDIX A
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
————

[Filed 02/23/17]

Case No. 3:16-CV-00704-L-JLB
————
YOUNGEVITY INTERNATIONAL CORP. and
JOEL D. WALLACH, DVM, ND,
Plaintiff,
v.
TODD SMITH; WAKAYA PERFECTION;
TOTAL NUTRITION TEAM dba TNT; BLAKE GRAHAM;
WILLIAM ANDREOLI; ANDRE VAUGHN; DAVE PITCOCK;
PATTI GARDNER; and BRYTT CLOWARD,
Defendants.
————
WAKAYA PERFECTION, LLC; TODD SMITH;
BLAKE GRAHAM; DAVE PITCOCK; BARB PITCOCK;
ANDRE VAUGHN; TOTAL NUTRITION, INC. dba TNT,
Counterclaim Plaintiffs,
v.
YOUNGEVITY INTERNATIONAL, INC.;
DR. JOEL WALLACH; STEVE WALLACH;
MICHELLE WALLACH; DAVE BRISKIE; DOES 1-10,
Counterclaim Defendants.
————
Judge M. James Lorenz
Magistrate Judge Jill L. Burkhardt
————

2a
————
JURY TRIAL REQUESTED
————
FIRST AMENDED ANSWER
AND COUNTERCLAIM
————
Kyle Van Dyke (171186)
kvandyke@hurst-hurst.com
HURST & HURST
701 B Street, Suite 1700
San Diego, CA 92101
Telephone: (619) 236-0016
Facsimile: (619) 236-8569
Jonathan O. Hafen
(admitted pro hac vice, Utah #6096)
jhafen@parrbrown.com
Jonathan R. Schofield
(admitted pro hac vice, Utah #8742)
jschofield@parrbrown.com
PARR BROWN GEE & LOVELESS, P.C.
101 South 200 East, Suite 700
Salt Lake City, Utah 84111
Telephone: (801) 532-7840
Facsimile: (801) 532-7750
Attorneys for Defendants
* * *

3a
COUNTERCLAIM
Plaintiffs Wakaya Perfection, LLC (“Wakaya”),
Todd Smith (“Smith”), Blake Graham (“Graham”),
Andre Vaughn (“Vaughn”), Dave Pitcock, Barb Pitcock,
and Total Nutrition, Inc. (“TNT” or, collectively with
Wakaya, Smith, Graham, Vaughn, Dave Pitcock,
and Barb Pitcock, “Counterclaim Plaintiffs”) hereby
allege, aver, and complain of Defendants Youngevity
International, Inc. (“Youngevity”), Dr. Joel Wallach,
Michelle Wallach, Steve Wallach, and Dave Briskie
(collectively, “Counterclaim Defendants”) as follows:
INTRODUCTION
1. Counterclaim Plaintiffs assert the claims herein to address Youngevity’s breaches of contract, as well
as the individual Counterclaim Defendants’
independently tortious behavior. Several Counterclaim Plaintiffs are former Youngevity distributors
who have dedicated years, even decades, to building
successful businesses selling Youngevity products.
2. In response to several instances of serious
misconduct by the individual Counterclaim Defendants, Smith left Youngevity, where he had worked to
build successful Youngevity distributorships for nearly two decades, to pursue other opportunities. He
founded Wakaya in late 2015.
3. Rather than accepting responsibility for their
own misdeeds, the individual Counterclaim Defendants—who are all either officers and board members
at Youngevity or the founder of the company—through
Youngevity, engaged in a concerted campaign to
destroy Wakaya in its infancy.
4. Acting out of personal spite and without any
legal justification, the individual Counterclaim De-

4a
fendants threatened any Youngevity distributor who
expressed an interest in working with Wakaya, either
in addition to or instead of working for Youngevity.
5. On information and belief, the individual
Counterclaim Defendants’ goal was to prevent Smith
from successfully launching Wakaya and to punish
Smith for his perceived disloyalty to Youngevity—a
disloyalty that existed solely in the minds of the
individual Counterclaim Defendants.
6. At the same time, the individual Counterclaim
Defendants continued to engage in counterproductive
and damaging ways, driving away high-ranking
Youngevity distributors, as well as members of
Youngevity’s corporate staff.
7. Not content to allow these distributors to associate with Wakaya—as was their legal right—the
individual Counterclaim Defendants, acting through
Youngevity and without legal justification, summarily
terminated the distributorships of any distributor
they believed was associating with Smith or Wakaya,
including the distributorships of Vaughn, Dave and
Barb Pitcock (the “Pitcocks”), and TNT, which is
owned and operated by Graham (collectively, the
“Distributor Counterclaim Plaintiffs”).
8. The Distributor Counterclaim Plaintiffs, despite dedicating years, even decades, to building
successful businesses selling Youngevity Products,
found themselves caught up in the individual Counterclaim Defendants’ vendetta against Smith and
Wakaya. The individual Counterclaim Defendants,
acting through Youngevity and without legal justification, arbitrarily and vindictively destroyed the
Distributor Counterclaim Plaintiffs’ Youngevity businesses and threatened their livelihoods.

5a
9. On information and belief, the individual
Counterclaim Defendants have threatened to do the
same to any Youngevity distributor they perceive as
“disloyal.”
10. Thus, this case is about a small group of
individuals using their positions within Youngevity to
carry out personal vendettas against anyone they
perceive as disloyal, even if that perception is totally
unfounded.
PARTIES, JURISDICTION, AND VENUE
11. Wakaya was at all relevant times herein a
limited liability company duly formed under the laws
of the State of Utah. Wakaya was formed by Smith and
has its headquarters in Lindon, Utah. It focuses on
marketing, among other products, 100% organic and
kosher healing products grown and cultivated on a
unique 2,200-acre island in the Fiji archipelago called
the Wakaya Island (“Wakaya Products”).
12. TNT is a corporation incorporated in the State
of Utah and a former distributor for Youngevity.
13. Smith is a resident of Utah and the founder of
Wakaya.
14. Graham is a resident of Utah and owner of TNT,
through which he managed Youngevity distributorships.
15. Vaughn is a resident of Maryland and a former
distributor for Youngevity.
16. Dave Pitcock (“Dave”) is a resident of Kansas
and a former distributor for Youngevity.
17. Barb Pitcock (“Barb”) is a resident of Kansas
and a former distributor for Youngevity.

6a
18. Counterclaim Plaintiffs are informed, believe,
and thereon allege that Youngevity was at all relevant
times herein, and still is, a Delaware corporation with
its headquarters in Chula Vista, California, that is
and has been registered to do business and doing
business in the State of Utah during all relevant times
hereto. Youngevity touts itself as a nutritional and
coffee company offering more than 1,000 products,
including nutritional supplements, sports and energy
drinks, health and wellness products (e.g., spa, bath,
garden, and pet-related products), digital products
(including scrapbooks), gourmet coffee, skincare and
cosmetics, weight management products, packaged
foods, pharmacy discount cards, and apparel/ accessories (“Youngevity Products”).
19. Counterclaim Plaintiffs are informed, believe,
and thereon allege that Dr. Joel Wallach is a resident
of California. Dr. Wallach is founder of Youngevity and
remains the driving force behind the company’s
philosophy. Dr. Wallach frequently visits Utah for
business-related activities.
20. Counterclaim Plaintiffs are informed, believe,
and thereon allege that Michelle Wallach is a resident
of California. Michelle Wallach is married to Steve
Wallach and is currently Chief Operating Officer of
Youngevity, as well as a member of its board of
directors. Michelle Wallach frequently visits Utah for
business-related activities.
21. Counterclaim Plaintiffs are informed, believe,
and thereon allege that Steve Wallach is a resident of
California. Steve Wallach is Dr. Wallach’s son and
Chief Executive Officer of Youngevity, as well as a
member of its board of directors. Steve Wallach
frequently visits Utah for business-related activities.

7a
22. Counterclaim Plaintiffs are informed, believe,
and thereon allege that Dave Briskie is a resident of
California. Briskie is currently President of Youngevity, as well as a member of its board of directors.
Briskie frequently visits Utah for business-related
activities.
23. Does 1-10 are the owners and/or operators
of the website wakayaperfectiontellall.com, which
is currently registered through the proxy service
Domains by Proxy. Counterclaim Plaintiffs will amend
this Counterclaim to name Does specifically and
individually upon learning their respective identities.
24. This Court has jurisdiction over this matter
pursuant to 28 U.S.C. §§ 1331 and 1332.
25. Counterclaim Defendants have sufficient minimum contacts with the State of California in conducting their business operations with the Counterclaim
Plaintiffs herein so as to make the exercise of jurisdiction over Counterclaim Defendants in this state
foreseeable and reasonable under the facts and
circumstances alleged herein.
GENERAL ALLEGATIONS
Youngevitv Distributor Agreements
26. Youngevity and Wakaya are both multilevel
marketing companies. Under this model, products are
sold through a distribution chain of independent
distributors. Each distributor recruits other distributors to join his or her organization, building their
own dedicated network of down-line distributors, with
each distributor purchasing products supplied by the
company with which they are affiliated and selling
those products to others.

8a
27. It is a common practice within the multilevel
marketing industry for distributors to have multiple
distributorships within different companies.
28. Counterclaim Plaintiffs challenge the interpretation and enforceability of certain purported restrictive covenants entered into between Youngevity and
its distributors that the individual Counterclaim
Defendants, through Youngevity, are attempting to
use as a tool to prevent current Youngevity distributors from becoming Wakaya distributors. Youngevity
is attempting to enforce the policies and procedures
manual for Youngevity, purported to be the source of
such restrictions (“Policies and Procedures”). A copy of
the Policies and Procedures is attached as Exhibit A
hereto.
29. The standard distributor agreement used by
Youngevity is a one-page document combined with an
application document. A copy of what is believed to be
the distributor agreement used by Youngevity with all
of its distributors is attached as Exhibit B hereto (“Distributor Agreement”). As potentially relevant to this
lawsuit, the Policies and Procedures contain the following clause relating to the Youngevity distributors’
right and ability to associate with another direct sales
company:
All Distributors are Independent Contractors; the Company [Youngevity] imposes no
restrictions on any Distributor’s participation
or sales activities in other businesses or
programs other than Youngevity except as
said activities or programs would cause or
create a violation of Distributor’s agreement
with Company or any of these policies and
procedures.

9a
[Policies and Procedures at 9, ¶ E6 (“Non-Compete
Provision”).]
30. The Non-Compete Provision on its face expressly allows Youngevity distributors to affiliate with
other companies and other sales programs. Further,
nothing in the Distributor Agreement precludes
Youngevity distributors from choosing to become
Wakaya distributors.
31. As potentially relevant to this lawsuit, the
Policies and Procedures contains the following clause
relating to the Youngevity distributors’ right and
ability to recruit other Youngevity distributors to work
for another direct sales company:
Distributors are strictly forbidden from CrossRecruiting, and shall not sell, recruit, propose, or in any way induce or attempt to
induce any other Distributor to purchase any
product or service, or to participate in any
other income opportunity, investment, venture, or commit any other activity deemed, at
the full discretion of [Youngevity], as crossrecruiting. This includes any such activities
across any divisions of [Youngevity], should
any separate divisions with different compensation plans and or hierarchy exist, unless, and as specifically stated otherwise. The
integrity of the hierarchy and the relationships therein is of paramount importance to
every Distributor as well as to [Youngevity].
Any Distributor violating this provision may
be subject to immediate termination for
cause, forfeiting any and all commission due
him or her.

10a
[Policies and Procedures at 10-11, ¶ E12 (“NonSolicitation Provision”).]
32. As potentially relevant to this lawsuit, the
Policies and Procedures contains the following clause
relating to the confidentiality of Youngevity’s distributor lists:
Distributor lists, including downline sales
organization information, is proprietary and
confidential to [Youngevity], with the exception of first level, personally enrolled Distributors. [Youngevity] may forward genealogical
information at a nominal cost to Distributors,
in strict and complete confidence, to help
them manage their downline sales organization and for no other purpose.
Every Distributor who is provided with such
information shall treat it as confidential and
take care to maintain its secrecy as well
as refrain from making any use thereof for
any purpose other than the management of
his/her downline sales organization. Without
limiting the generality of the foregoing, no
such information may be used in crossrecruiting or with the intent to entice Company Distributors into other network marketing organizations.
Any violation of this policy by a Distributor
will result in the immediate suspension and/
or termination of the offending Distributor.
Furthermore, the offending Distributor could
be subject to legal action for injunctive relief
and/or damages.
[Policies and Procedures at 9-10, ¶ E7 (“Confidential
Information Provision”).]

11a
33. Youngevity asserts the Non-Solicitation and
Confidential Information Provisions as its basis for
terminating the Distributor Counterclaim Plaintiffs’
distributorships.
34. To the extent that the Non-Compete, NonSolicitation, and Confidential Information Provisions
restrict Counterclaim Plaintiffs’ ability to engage in
any lawful business, they are void under California
law.
35. Youngevity’s attempt to enforce invalid
contractual provisions is a violation of California’s
Unfair Competition Law, Cal. Bus. & Prof. Code §
17200 et seq.
The Distributor Counterclaim Plaintiffs
36. Not long after Youngevity was founded, Smith
and Graham began working as independent distributors for Youngevity in 1997, building their distributorship downline and contributing to the company.
37. Smith and Graham formed TNT in 1997,
through which they operated Youngevity distributorships.
38. Over the years, Smith and Graham, through
TNT, became some of Youngevity’s most successful
distributors, achieving the highest levels and awards
offered by Youngevity.
39. Through TNT, Graham created a variety of
tools that were both used within TNT’s distributorships and sold to other Youngevity distributors. These
tools include CDs, DVDs, and literature promoting
Youngevity and Dr. Wallach’s message, which were
marketed through TNT’s registered website domains,
wallachonline.com and yteamtools.com, and 1-800WALLACH. All of these tools and avenues were used

12a
with Youngevity’s and Dr. Wallach’s knowledge, and
without objection, for the entirety of TNT’s relationship with Youngevity, which has spanned nearly two
decades.
40. Vaughn began his relationship with Youngevity when the multilevel marketing company he was
working for, FDI, was acquired by Youngevity in 2011.
41. Vaughn spent tremendous efforts working to
develop his Youngevity downline distributorships,
promoting Youngevity’s products and message, becoming one of Youngevity’s most successful distributors, and achieving the highest levels and awards
offered by Youngevity.
42. In July 2012, Youngevity acquired Livinity Inc.,
a nutritional and essential oils multilevel marketing
company, which was owned and operated by the
Pitcocks. As a result of the acquisition, the Pitcocks
and most of Livinity’s distributors became Youngevity
distributors.
43. The Pitcocks spent tremendous efforts working
to develop their Youngevity downline distributorships,
promoting Youngevity’s products and message, becoming some of Youngevity’s most successful distributors,
and achieving the highest levels and awards offered by
Youngevity.
44. Smith, Graham, and Distributor Counterclaim
Plaintiffs worked closely together at Youngevity and,
over the years, became personal friends.
Youngevitv Misconduct and Its Effect
45. Youngevity is controlled by Steve Wallach,
CEO; Michelle Wallach, COO; and Dave Briskie,
President, (collectively, “Wallach Group”). Each member of the Wallach Group is on Youngevity’s Board

13a
of Directors, and on information and belief they
collectively own a controlling majority of Youngevity’s
publicly traded stock.
46. Together with Youngevity’s founder, Dr. Wallach,
the Wallach Group engaged in counterproductive
behavior, including undermining promising acquisitions, promoting ill-conceived and unprofitable business decisions, concealing certain acts from management, and engaging in inappropriate and dishonest
behavior. The following examples, as set forth in
Paragraphs 46-58, are illustrative of such behavior:
47. On information and belief, Youngevity’s Founder,
Dr. Wallach, frequently engaged in a pattern of
traveling with and sharing hotel rooms at Youngevity
events with a variety of female companions other than
his wife, some of whom are Youngevity distributors.
This behavior was widely known within the Youngevity community.
48. Taking advantage of the influence he held
as founder of Youngevity, Dr. Wallach routinely
attempted to coerce distributors, including Vaughn
and the Pitcocks, into inserting Dr. Wallach’s female
companions into favored positions in their distributors’ organization. The Wallach Group tolerated, and
thereby condoned, this behavior, despite its highly
inappropriate nature.
49. When the Distributor Counterclaim Plaintiffs
protested about Dr. Wallach’s manipulation of their
organizational structures, the Wallach Group reacted
in vindictive and defensive ways. For example, when
any distributor refused to insert Dr. Wallach’s
companions into his or her organization, Dr. Wallach
threatened to never participate in events or otherwise
help them promote their business. Often this threat

14a
from the founder of the company was enough to compel
compliance.
50. When the Pitcocks objected to Dr. Wallach’s
attempts to force distributors to insert his companions
into their organizations—which the Pitcocks viewed as
an abuse of power and highly damaging to the morale
of Youngevity’s distributors—consistent with their
usual practice, the Wallach Group reacted defensively
and vindictively.
51. For example, on information and belief, Michelle
Wallach fabricated emails accusing Barb of crossrecruiting, which emails were intended to discredit
Barb and damage her reputation both within Youngevity and in the larger direct marketing community.
52. Finally losing patience with Youngevity management’s unproductive behavior, Dave left Youngevity in the fall of 2014, citing the fabricated emails
and Dr. Wallach’s practice of coercing distributors to
include his female companions into their organizations as his reasons for leaving. Barb remained with
Youngevity and managed her distributorships until
Youngevity summarily terminated them in March of
2016.
53. Vaughn observed Dr. Wallach and Michelle
Wallach yelling at company employees in public,
intimidating and bullying distributors, and generally
undermining morale. More damning, the Wallach
Group engaged in and tolerated cross-line recruiting
within Youngevity. Cross-line recruiting involves one
party recruiting members of another party’s downline,
and is prohibited by the Policies and Procedures. The
Wallach Group used their personal standing within
the company to engage in this prohibited practice to

the benefit
distributors.

of

15a
themselves

and

their

favored

54. Although Vaughn was initially content to work
for Youngevity, he became increasingly disillusioned
with the company because of inappropriate and unprofessional behavior on the part of senior management, including Dr. Wallach, Michelle Wallach,
and Briskie. Fed up with the Wallachs’ self-dealing,
favoritism, and unprofessional behavior, Vaughn
began looking for other opportunities outside of
Youngevity.
55. At a Youngevity event in September 2014,
Briskie, then Chief Financial Officer and director of
international development for Youngevity, and Steve
Wallach, then Chief Executive Officer of Youngevity,
announced that Youngevity had completed all of the
requirements for allowing Youngevity businesses to
operate in Mexico. Briskie and Steve Wallach also
announced that Youngevity’s office in Guadalajara,
Mexico was open and that Youngevity’s warehouse in
Mexico was stocked with product to sell.
56. Smith had lunch with Briskie and Steve
Wallach that same day.
57. During that lunch meeting, Smith specifically
verified with Briskie and Steve Wallach that Youngevity had obtained the required regulatory approvals
to distribute its products in Mexico.
58. During that conversation, Smith informed
Briskie and Steve Wallach that he planned to begin
establishing Youngevity distributorships in Mexico.
59. At no point did Briskie or Steve Wallach correct
Smith’s express understanding that Young-evity had

16a
completed all of the requirements to conduct business
in Mexico.
60. Based on the public announcement and Briskie
and Steve Wallach’s private reiteration, Smith began
preparations to set up Youngevity distributorships in
Mexico. He booked meeting spaces and organized
several large events, which cost a substantial amount
of money.
61. However, in January 2015, the day before
Smith was due to fly to Mexico to begin operations,
Briskie informed him that Youngevity had not,
in fact, completed the requirements to enter the
Mexican market.
62. Upon investigating, Smith discovered Youngevity was nowhere near ready to conduct lawful
operations in the country and was, in fact, shipping
Youngevity products into Mexico in furniture crates.
On information and belief, Youngevity took these
measures to avoid customs inspections.
63. The Wallach Group’s conduct not only had an
adverse effect on Youngevity distributors, but also
affected Youngevity corporate employees and their
desire to work for Youngevity. For example, Youngevity’s former president, William Andreioli, resigned
in or about November 2015, citing the following issues
with the Wallach Group:
a. The Wallach Group consistently undermined
efforts to promote Youngevity by cancelling
distributor incentives;
b. The Wallach Group, without consulting
the rest of Youngevity management, pursued illconceived business ventures, such as a fashion line,
with no plan in place for their long-term viability

17a
and no clear connection to Youngevity’s other
product lines;
c. The Wallach Group announced expansions
into international markets—engendering costs
associated with “grand openings”—without first
obtaining the required regulatory clearances for
Youngevity products;
d. The Wallach Group approved of and supported extra bonuses, commissions, and overrides
for favored distributors, thereby treating those
favored distributors differently than other distributors;
e. The Wallach Group allow certain favored
distributors to acquire product significantly below
the usual distributor pricing and to sell that product
on Ebay and Amazon at below distributor pricing,
thereby undermining the closed distributor network
on which the other distributors depend;
f. The Wallach Group approved of, or at least
did nothing to stop, the smuggling of Youngevity
products into Mexico. On information and belief, the
Wallach Group authorized the smuggling operation
because Youngevity had yet to obtain the necessary
regulatory approvals to import its products into
Mexico;
g. The Wallach Group authorized exorbitant
expenditures of Youngevity funds, such as spend-ing
$800,000 on a K cup coffee machine.
The Founding of Wakava & Wakava’s Lawful Interaction with Younaevitv Distributors & Employees
64. Following the Mexico debacle, Smith decided
to leave Youngevity to pursue other opportunities,

18a
including founding a line of healthy, Asian-inspired
restaurants.
65. In or about the fall of 2015, Smith was
presented with the opportunity to acquire Wakaya.
Seeing the potential to turn Wakaya into a successful
multi-level marketing company, Smith acquired
Wakaya in October 2015. Smith specifically chose
Wakaya because it did not market products that
competed with Youngevity’s.
66. Graham was not involved with the purchase of
Wakaya, or its conversion to a multi-level marketing
company. At no time prior to March 21, 2016, was
Graham a distributor for or otherwise involved in
Wakaya.
67. On or about December 31, 2015, Smith sold his
interest in TNT and all its assets to Graham, leaving
Graham to operate the TNT Youngevity distributorships.
68. Graham remained with Youngevity and continued to operate TNT, wallachonline.com, yteamtools.
com, and 1-800-WALLACH.
69. After hearing through the grapevine that Smith
was starting another company, Vaughn approached
Smith about becoming a Wakaya distributor. At all
times, Vaughn wanted to and intended to retain his
Youngevity business while also pursuing other
opportunities, as was his legal right.
70. Upon learning of Wakaya, Dave approached
Smith about becoming a distributor for Wakaya. It
was always the Pitcocks’ intention that Barb would
remain a Youngevity distributor, devoting her time
and energy into the building of her Youngevity
distributorship.

19a
71. Barb initially refused to have anything to do
with Wakaya, preferring to avoid even the appearance
of impropriety. At all times, Barb wanted to
and intended to retain her Youngevity business and
continue to operate her Youngevity distributorship
and work to promote Youngevity.
72. At no point prior to March of 2016 was Barb
involved with Wakaya.
73. At no point did Smith or anyone else at Wakaya
approach the Distributor Counterclaim Plaintiffs or
any other Youngevity distributor about joining
Wakaya.
74. None of the Distributor Counterclaim Plaintiffs
engaged in any cross-recruiting or made use
of any Youngevity proprietary information to contact
anyone concerning Wakaya. To the extent any Youngevity distributors have become Wakaya distributors, it
is as a result of those distributors approaching
the Distributor Counterclaim Plaintiffs and inquiring
about Wakaya.
75. Given the toxic environment within Youngevity as a result of the Wallach Group’s influence,
several Youngevity employees, upon learning about
Wakaya, approached Smith about employment opportunities. Neither Wakaya nor Smith initiated any
contact to hire Youngevity employees.
Youngevity’s Wrongful Termination and Retaliatory
Conduct against Counterclaim Plaintiffs
76. Because other Youngevity distributors have
expressed interest in Wakaya, Youngevity has engaged in or threatened litigation against both the
Distributor Counterclaim Plaintiffs (or current distributors with the intent of trying to intimidate them

20a
and thereby prevent distributors from leaving to join
Wakaya) and against Wakaya, claiming the Youngevity Policies and Procedures prevent Youngevity
distributors from distributing the Wakaya Products
instead of, or in addition to, the Youngevity Products.
77. In or about February of 2016, Youngevity
summarily suspended the TNT distributorships
and began to withhold TNT’s commission payments.
Youngevity subsequently terminated the TNT distributorships in March 2016. On information and
belief, Youngevity’s decision to terminate the TNT
distributorships was driven by Smith’s founding of
Wakaya, which Youngevity viewed as a threat.
78. In or about February of 2016, Youngevity
summarily suspended Barb’s distributorships and
began to withhold her commission payments. Youngevity terminated Barb’s distributorships in March
2016. On information and belief, Youngevity’s decision
to terminate the Barb Pitcock’s distributorships was
driven by the fact that Dave Pitcock had become a
Wakaya distributor.
79. In or about February of 2016, Youngevity
suspended Vaughn’s distributorship and withheld his
commission payments when it learned of his interest
in Wakaya. Youngevity terminated Vaughn’s distributorships in March 2016. On information and
belief, Youngevity’s decision to terminate Vaughn’s
distributorships was driven by his interest in
becoming a distributor for Wakaya.
80. Notwithstanding the fact that Youngevity’s
Policies and Procedures allow Youngevity distributors
to work for multiple companies, and have distributorships within competing MLM companies, Youngevity

21a
claims that the Distributor Counterclaim Plaintiffs
are in violation.
81. Youngevity’s Policies and Procedures also allow
for multiple members of the same household to work
for different companies and even have distributorships
within competing MLM companies.
82. In terminating the Distributor Counterclaim
Plaintiffs, Youngevity is attempting to selectively
enforce certain provisions that are neither legally
enforceable nor have they been enforced in the past.
For example, Youngevity has allowed and continues to
allow distributors to work for multiple companies or
operate multiple distributorships with multiple companies within the same household, including but not
limited to the following current Youngevity distributors: Kurt and Theresa Venekamp, Scott and Juliette
Fardulis, Iggy and Victoria Baran, Dr. Luis and Evelia
Arriaza, Tom and Denice Chenault, and many others.
83. Following the termination of the TNT distributorships and Youngevity’s decision to withhold the
commission checks, Graham was approached by another Youngevity distributor with an offer to purchase
wallachonline.com, 1-800-WALLACH, and the media
items Graham had created.
84. On information and belief, Youngevity, through
Steve Wallach and Briskie, told the buyer it would not
approve of the sale if any of the profits would
flow to Graham or Smith. Fearful of reprisal from
Youngevity, the buyer backed out. On information and
belief, Briskie and Steve Wallach interfered with the
sale of TNT’s assets in an effort to punish and
intimidate Graham and any other distributor perceived to be associated with Wakaya and/or Smith.

22a
85. In another situation involving the potential sale
of TNT assets, partners in Heirloom Enterprises,
which has multiple Youngevity distributor positions
and is owned by TNT, Sam Steele, and Michael Weeks,
wanted to buy TNT’s interest in Heirloom. Youngevity,
again through Briskie and Steve Wallach, interfered
with the transaction, claiming that they would not
approve of the sale or pay commissions to Heirloom
Enterprises if one penny went to Graham. On information and belief, Briskie and Steve Wallach threatened the Heirloom Enterprises partners as part of a
scheme to punish and intimidate Graham and any
other distributors perceived to be associated with
Wakaya and/or Smith.
86. Among other things, Youngevity, through the
Wallach Group and Dr. Wallach, have informed
Youngevity distributors wishing to join Wakaya that
they would be “pursued and crushed,” or words to that
effect.
87. On information and belief, Youngevity has,
without any legal justification, terminated and/or
threated to terminate the distributorships of and/or
withhold Youngevity commission checks from distributors who expressed an interest in working with
Wakaya.
Counterclaim Defendants’ Conspiracy to Defame
Counterclaim Plaintiffs
88. Counterclaim Defendants, together with all
other individuals revealed through discovery, have
engaged in a concerted effort to defame Counterclaim
Plaintiffs.
89. After terminating the Distributor Counterclaim
Plaintiffs, Youngevity, through Dr. Wallach and the
Wallach Group, have made a series of false and

23a
defamatory statements concerning the Distributor
Counterclaim Plaintiffs.
90. For example, Dr. Wallach has stated that Smith
and Graham stole Youngevity distributors; they stole
money; they stole our staff; they stole thumb drives
with people’s names, numbers and emails; stating that
he knew for a fact that they were contacting and took
people who are certain ranks within Youngevity.
Dr. Wallach stated that Smith and Graham have
perpetrated crime and compared them to rapists.
91. Dr. Wallach further stated that Smith stole
business opportunities from Youngevity and that he
did it because he was desperate for money, making
disparaging remarks about Smith’s family and his
finances and business, stating that Smith was going
bankrupt and was going to lose his house because his
restaurants weren’t doing well.
92. These statements are false, defamatory per se,
personally hurtful, and threaten to harm Smith’s and
Graham’s reputations in the network marketing
community.
93. On information and belief, Dr. Wallach made
these statements in order to discredit Smith and
Graham and deter Youngevity distributors from
working with Wakaya.
94. Dr. Wallach further asserted that the Pitcocks
had raided and destroyed four prior multilevel
marketing companies. He stated that Youngevity was
the fourth company in ten years that the Pitcocks
destroyed.
95. These statements are false.
96. Such false statements, which suggest the Pitcocks intentionally raided the multilevel marketing

24a
companies they worked with in the past, are extremely
harmful to Barb’s business as a consultant within the
larger direct-sales community.
97. On March 21, 2016, Steve Wallach sent an
email to the Youngevity network of distributors
(“Wallach Email”). A copy of the Wallach Email is
attached hereto as Exhibit C.
98. The Wallach Email accuses Smith, Wakaya,
and, on information and belief, the Distributor
Counterclaim Plaintiffs, of engaging in theft, misappropriation of confidential information, and breaching various provisions of the Youngevity Policies and
Procedures.
99. These accusations are entirely false, defamatory per se, and harmful to Counterclaim Plaintiffs’
reputations in the network-marketing community—in
which personal reputation and relationships are
extremely important—and/or have the tendency to
injure Counterclaim Plaintiffs’ businesses.
100. One of Youngevity’s top distributors is Sheryl
Emord, wife of Plaintiffs’ counsel in this matter,
Jonathan W. Emord.
101. Prior to Counterclaim Defendants’ wrongful
termination of TNT’s distributorships, Sheryl Emord
was in TNT’s direct “upline.”
102. When Counterclaim Defendants terminated
TNT’s distributorships, the commissions that were
supposed to have been paid to TNT rolled up to those
in its upline, including Sheryl Emord.
103. Thus, Sheryl Emord—and by extension Jonathan W. Emord—were personally enriched by TNT’s
wrongful termination and by the Counterclaim De-

25a
fendant’s subsequent intimidation of Youngevity
distributors.
104. On March 23, 2016, Plaintiffs filed a Verified
Complaint for Damages and Injunctive Relief in this
matter against Counterclaim Plaintiffs and others,
alleging a variety of contract and tort claims (“Verified
Complaint”). [Dkt. 1.]
105. The Verified Complaint was signed by Steve
Wallach, through which he certified under penalty of
perjury that he had read the Verified Complaint and
that the contents of that complaint were true and
accurate.
106. In the Verified Complaint, Counterclaim Defendants repeat many of the same false allegations
contained in the Wallach Email.
107. In addition to the false and defamatory statements echoing those in the Wallach Email, the
Verified Complaint contains numerous additional
allegations that are false and defamatory.
108. By way of example, among the most serious of
the defamatory statements, the Verified Complaint
alleges that Smith unlawfully engaged in the sale of
Youngevity products in Mexico without authorization
from Youngevity and without required approvals from
Mexican authorities. [Dkt.1 at ¶ 32.]
109. These allegations, which accuse Smith of
committing a crime across international borders, are
entirely false.
110. As described in paragraphs 54 through 57
above, Youngevity was smuggling product into Mexico
with, on information and belief, Steve Wallach’s full
knowledge and approval.

26a
111. The Verified Complaint also falsely alleged
that Andreoli, Gardner, and Cloward engaged in
criminal conduct. [Dkt. 1 at ¶¶ 62-63, 66-69.]
112. These and other defamatory allegations are
entirely false.
113. Despite the fact that the Verified Complaint
falsely accused Counterclaim Plaintiffs of engaging in
a variety of criminal acts, on information and belief,
Youngevity has deliberately published and publicized
the Verified Complaint—as well as other filings in this
and related litigation—to Youngevity distributors, the
media, and the broader network-marketing
community.
114. Specifically, counsel for Plaintiffs, Jonathan
Emord and Peter Arhangelsky, issued a press release
on March 23, 2016, summarizing the Verified Complaint. (“Emord Press Release”). A copy of the Emord
Press Release is attached hereto as Exhibit D.
115. The Emord Press Release was issued on the
same day as the Verified Complaint was filed and
expressly stated: “Copies of the [Verified] Complaint
and related pleadings are available upon request.”
[Ex. D.]
116. The Emord Press Release also invited readers
to contact Jonathan W. Emord or Peter A. Arhangelsky for more information about the case. [Ex. D.]
117. Subsequently, Counterclaim Defendants’ false
and defamatory allegations in this and related litigation have been republished by various blogs associated
with the network-marketing community (“Blog Posts”).
A copy of the Blog Posts is attached hereto as Exhibit
E.

27a
118. As licensed attorneys, counsel for Plaintiffs
knew or should have known that publishing or
publicizing the Verified Complaint—or any other
filing—beyond the scope of the applicable proceedings
waived any privilege that would otherwise work to
shield such allegations.
119. In addition to the defamatory statements
published and publicized by the Wallach Group and
Dr. Wallach, on information and belief, Plaintiffs’
counsel in this matter have stepped beyond their role
as advocates and have personally participated in the
Counterclaim Defendants’ conspiracy to defame the
Counterclaim Plaintiffs. Counterclaim Plaintiffs are
currently investigating the possibility of naming
Plaintiffs’ counsel individually as co-conspirators
in this action and reserve the right to amend this
Counterclaim as further information is discovered.
120. On information and belief, Counterclaim Defendants, and any other individuals revealed in
discovery, have continued to publicize and publish
filings in this and related litigation, which contain
additional defamatory statements. See Ex. E (blog
posts quoting from Counterclaim Defendant’s amended complaint and other filings).
121. Many of the allegations contained in the
Verified Complaint and other filings are defamatory
per se in that they accuse Counterclaim Defendants of
criminal activities.
122. Notably, many of the most defamatory statements contained in the Verified Complaint have since
disappeared from Counterclaim Defendants’ filings in
this matter—after those statements were disseminated to third parties—and the Counterclaim Defendants’ subsequent amended complaints are no

28a
longer verified. [Compare Dkt. 1 with Dkt. 25; Dkt. 47;
and Dkt. 64.]
123. On or about June 2016, the website wakaya
perfectiontellall.com (the “Website”) was registered
through the proxy service Domains by Proxy, LLC
(“Domains by Proxy”).
124. Domains by Proxy allows its users to register a
website domain anonymously.
125. The Website purports to tell “The Truth Behind
Wakaya Perfection,” accuses Wakaya and related
individuals of engaging in questionable business
practices, and republishes and republicizes many of
the same defamatory statements contained in the
Verified Complaint.
126. The Website also hosts a copy of the Emord
Press Release, which invites readers to contact Emord
or Arhangelsky for copies of the Verified Complaint
and other filings in this and related litigation.
127. The Website also contains a link to
Youngevity’s Second Amended Complaint in this
action.
128. On information and belief, Youngevity, its
agents, and all others found through discovery are
responsible for the Website and its defamatory
content.
Counterclaim Defendants’ Tortious Interference with
Wakava
129. Even after this Action was initiated, Youngevity and its agents have continued to interfere with
Wakaya’s business.

29a
130. Since February, 2016, Wakaya has had a
business relationship with LiveWell, L.L.C. (“Live
Well”), an Idaho limited liability company.
131. As part of this business relationship, Wakaya
and LiveWell entered into a license agreement (the
“License Agreement”) wherein Wakaya would license,
and eventually acquire, all rights to technology and
intellectual property owned and developed by Live
Well.
132. Under the License Agreement, Wakaya was
granted an irrevocable, exclusive license to all of
LiveWell’s technology and accompanying intellectual
property.
133. Wakaya was to pay a royalty percentage on all
sales of the LiveWell technology.
134. After Wakaya’s royalty payments reached a
contractually determined limit, Wakaya was to obtain
all rights to the technology and accompanying intellectual property.
135. The LiveWell technology became an integral
part of the Bula Bottle, a flagship Wakaya product.
136. As a corollary to the License Agreement,
Wakaya entered into a separate royalty agreement
(the “Royalty Agreement”) with Rick Anson (“Anson”),
who assisted with the development of the LiveWell
technology.
137. In recognition of Anson’s role in developing the
LiveWell technology, Wakaya agreed to pay Anson a
royalty percentage of all sales of the LiveWell
technology.
138. Under the Royalty Agreement, Anson agreed
not to disclose any of Wakaya’s confidential information.

30a
139. Anson also covenanted that—while the Royalty
Agreement was in effect and for one year thereafter—
he would not engage in any competing business as
proprietor, partner, employee, agent, consultant, or
shareholder.
140. The Royalty Agreement expressly defined a
competing business as any business that offers its
products or services through a multilevel marketing
model.
141. In addition to the Royalty Agreement, Anson
took a position as Vice President of Product Development at Wakaya.
142. As a vice president of Wakaya, Anson owed
fiduciary duties to Wakaya independent of any contractual obligation.
143. On information and belief, Youngevity and its
agents were aware of Wakaya’s relationship with
LiveWell and Anson.
144. On information and belief, Youngevity and its
agents were in contact with Anson at least as early as
October 2016.
145. On information and belief, Youngevity worked
to convince Anson to breach his contractual and
fiduciary obligations to Wakaya by further publishing
and publicizing the defamatory material Youngevity
had already included in its Verified Complaint and
other filings.
146. Anson breached his fiduciary obligations to
Wakaya by misappropriating Wakaya’s confidential
information and using that confidential information to
convince LiveWell to terminate its contractual relationship with Wakaya.

31a
147. On information and belief, Anson took those
actions at Youngevity’s request and encouragement.
148. LiveWell and Anson terminated their contractual relationship with Wakaya in January 2017.
149. On February 7, 2017—only a month after
terminating his relationship with Wakaya—Anson
appeared at a Youngevity event in the Dominican
Republic at which he announced the launch of a
new Youngevity product line featuring the LiveWell
technology.
150. Youngevity’s new product line is substantially
identical to Wakaya’s Bula Bottle.
151. On information and belief, Anson is now a vice
president at Youngevity.
152. As a result of Youngevity’s interference,
Wakaya has lost a valuable business relationship, as
well as a flagship product.
153. Wakaya has also lost the potential long-term
benefits of the License Agreement, under which
Wakaya was working to eventually acquire all rights
to the LiveWell technology.
Counterclaim Defendants’ Actions Have Harmed
Counterclaim Plaintiffs
154. Counterclaim Defendants’ actions have harmed Counterclaim Plaintiffs in numerous ways.
155. When Counterclaim Defendants summarily
terminated the Distributor Counterclaim Plaintiffs’
distributorships without legal justification, the Distributor Counterclaim Plaintiffs’ current and future
livelihoods were jeopardized. Despite committing
years, even decades, to building their Youngevity
businesses—which benefitted Youngevity—the Dis-

32a
tributor Counterclaim Plaintiffs were terminated
without warning to, on information and belief, retaliate against Smith, Wakaya, and anyone perceived to
have associated with them.
156. Beyond the retaliatory termination of the
Distributor Counterclaim Plaintiffs, Counterclaim
Defendants threatened to, and did, terminate the
distributorships of any Youngevity distributor who
expressed interest in or support for Smith, Wakaya, or
anyone perceived to have associated with them. This
had the effect of deterring qualified distributors from
associating with Wakaya.
157. Counterclaim Defendants have defamed Counterclaim Plaintiffs with the intent of harming
Counterclaim Plaintiffs’ standing in the network
marketing community, and such statements have, in
fact, harmed Counterclaim Plaintiffs’ reputations and
damaged their businesses.
158. Acting out of personal spite, Counterclaim
Defendants have unlawfully interfered with the sale
of TNT’s valuable intellectual property.
159. Although Counterclaim Plaintiffs do not yet
know the full extent of the damages they have suffered
because of Counterclaim Defendants’ unlawful
actions, their initial calculations estimate damages of
not less than tens of millions of dollars.
FIRST CLAIM FOR RELIEF
(Declaratory Judgment – Youngevity)
160. Counterclaim Plaintiffs hereby incorporate
paragraphs 1 through 159 of this Counterclaim by
reference, as if fully set forth herein.

33a
161. A dispute has arisen concerning the rights,
status, and legal relations between Distributor Counterclaim Plaintiffs and Youngevity.
162. Specifically, Youngevity has interpreted its
Policies and Procedures to prevent its distributors,
including Distributor Counterclaim Plaintiffs, from
exercising their freedom to work as distributors for
Wakaya or to join Wakaya and continue to work as
Youngevity distributors.
163. The Distributor Counterclaim Plaintiffs believe and assert that there is no valid contractual or
legal basis to support Youngevity’s conduct in attempting to intimidate and coerce its distributors from
leaving to become Wakaya distributors or to join
Wakaya and continue to work as Youngevity distributors.
164. Pursuant to 28 U.S.C. § 2201, the Distributor
Counterclaim Plaintiffs are entitled to a declaratory
judgment, determining and declaring the rights,
status, and legal relations of the parties hereto, at
least as follows: (1) determining that California law
applies to the instant dispute between the parties; (2)
declaring that the Policies and Procedures does not
preclude any of Youngevity’s distributors, including
Distributor Counterclaim Plaintiffs, from becoming
distributors of Wakaya; (3) alternatively, determining
the Policies and Procedures, and/or Distributor Agreement, if interpreted to restrict or prevent Youngevity
distributors from becoming Wakaya Distributors
(as Youngevity seeks) is unenforceable pursuant
to applicable California law, particularly California
Business and Professions Code section 16600, which
states that “every contract by which anyone is restrained from engaging in a lawful profession, trade or
business of any kind is to that extent void”; and

34a
(4) for any additional relief consistent with the above
declarations.
165. Counterclaim Plaintiffs are entitled to recover
their attorney fees and court costs incurred herein.
SECOND CLAIM FOR RELIEF
(Breach of Contract – Youngevity)
166. Counterclaim Plaintiffs hereby incorporate
paragraphs 1 through 165 of this Counterclaim by
reference, as if fully set forth herein.
167. Distributor Counterclaim Plaintiffs entered
into valid contracts with Youngevity. Specifically,
the Distributor Counterclaim Plaintiffs’ relationships
with Youngevity are governed by the Policies and
Procedures and/or the Distributor Agreement.
168. Distributor Counterclaim Plaintiffs have performed all obligations required under the Policies and
Procedures and the Distributor Agreement.
169. Youngevity has breached the Policies and
Procedures and/or the Distributor Agreement by
summarily terminating the Distributor Counterclaim
Plaintiffs’ distributorships without legal justification
and unlawfully withholding Distributor Counterclaim
Plaintiffs’ commission payments as set forth in paragraphs 71 through 82 above.
170. Youngevity’s breach has harmed the Distributor Counterclaim Plaintiffs. Youngevity’s actions have
damaged the Distributor Counterclaim Plaintiffs’
businesses, which were built over years and decades
with Youngevity. As a result, the Distributor Counterclaim Plaintiffs have suffered financial hardship
because Youngevity has wrongfully withheld payments to which the Distributor Counterclaim Plaintiffs are entitled, leading to direct and consequential

35a
damages in an amount to be proven at trial. Moreover,
Youngevity’s breach has deprived the Distributor
Counterclaim Plaintiffs of future income streams from
their Youngevity businesses in an amount to be proven
at trial.
THIRD CLAIM FOR RELIEF
(Breach of the Covenant of Good Faith
and Fair Dealing – Youngevity)
171. Counterclaim Plaintiffs hereby incorporate
paragraphs 1 through 170 of this Counterclaim by
reference, as if fully set forth herein.
172. The Distributor Counterclaim Plaintiffs entered into valid contracts with Youngevity.
173. The Distributor Counterclaim Plaintiffs performed all of their obligations arising from their
contracts with Youngevity.
174. All conditions required for Youngevity’s performance have already occurred.
175. Youngevity unfairly interfered with the Distributor Counterclaim Plaintiffs’ rights to receive the
benefits of their contracts when it summarily terminated their distributorships without legal justification
and withheld their commission payments.
176. As a result, the Distributor Counterclaim
Plaintiffs have been damaged in an amount to be
proven at trial.
FOURTH CLAIM FOR RELIEF
(Conversion – Youngevity)
177. Counterclaim Plaintiffs hereby incorporate
paragraphs 1 through 176 of this Counterclaim by
reference, as if fully set forth herein.

36a
178. The Distributor Counterclaim Plaintiffs had
a property interest in their Youngevity businesses and
the income derived therefrom. Specifically, the
Distributor Counterclaim Plaintiffs spent years, even
decades, building their Youngevity businesses and
have successfully built substantial downlines.
179. Youngevity wrongfully terminated the Distributor Counterclaim Plaintiffs’ distributorships and has
withheld the Distributor Counterclaim Plaintiffs’
commission checks, thereby converting the Distributor
Counterclaim Plaintiffs’ property for Youngevity’s use.
Moreover, the Distributor Counterclaim Plaintiffs’
downlines continue to produce substantial commissions, which rightfully belong to the Distributor
Counterclaim Plaintiffs. Instead of making payments
to the Distributor Counterclaim Plaintiffs, Youngevity
has converted all of the continuing profits for its own
use and/or has diverted these commissions to other
favored Youngevity distributors, including, but not
limited to, Sheryl Emord.
180. The Distributor Counterclaim Plaintiffs have
been damaged in an amount to be proven at trial
through Youngevity’s conversion of the past, current,
and future commission payments derived from the
Distributor Counterclaim Plaintiffs’ downlines.
FIFTH CLAIM FOR RELIEF
(Tortious Interference with
Existing Economic Relations – Youngevity)
181. Counterclaim Plaintiffs hereby incorporate
paragraphs 1 through 180 of this Counterclaim by
reference, as if fully set forth herein.

37a
182. The Distributor Counterclaim Plaintiffs have
valid economic relationship with the distributors in
their downlines.
183. Youngevity knew of the economic relationship
between the Distributor Counterclaim Plaintiffs and
the distributors in their downlines.
184. Youngevity intentionally interfered with that
economic relationship when it wrongfully terminated
the Distributor Counterclaim Plaintiffs’ distributorships.
185. The wrongful termination of the Distributor
Counterclaim Plaintiffs did, in fact, disrupt their
contractual relationship with the distributors in their
downline.
186. As a result, the Distributor Counterclaim
Plaintiffs have been damaged in an amount to be
proven at trial.
SIXTH CLAIM FOR RELIEF
(Tortious Interference with Existing Economic
Relations – Youngevity)
187. Counterclaim Plaintiffs hereby incorporate
paragraphs 1 through 186 of this Counterclaim by
reference, as if fully set forth herein.
188. Wakaya had a valid economic relationship with
LiveWell and Anson.
189. Youngevity knew of that relationship.
190. Youngevity and its agents intentionally interfered with that relationship when, on information and
belief, it contacted Anson—then Vice President of
Product Development at Wakaya—and republished
or republicized its defamatory allegations, thereby

38a
convincing Anson to terminate his and LiveWell’s
relationship with Wakaya.
191. This interference did, in fact, cause Anson and
LiveWell to terminate that relationship.
192. As a result, Wakaya has lost a valued business
relationship, a flagship product, and its future rights
to the LiveWell technology.
SEVENTH CLAIM FOR RELIEF
(Tortious Interference with Prospective Economic
Advantage – Youngevity)
193. Counterclaim Plaintiffs hereby incorporate
paragraphs 1 through 192 of this Complaint by
reference, as if fully set forth herein.
194. As detailed in paragraphs 71 through 82 above,
Youngevity distributors, including some Distributor
Counterclaim Plaintiffs, expressed interest in joining
Wakaya as distributors, in addition to maintaining
their Youngevity businesses as allowed for by the
Policies and Procedures.
195. Youngevity knew its distributors, including
some Distributor Counterclaim Plaintiffs, were interested in joining Wakaya.
196. In an effort to intimidate and coerce Youngevity distributors from joining Wakaya, Youngevity
terminated the Distributor Counterclaim Plaintiffs’
distributorships and withheld their commission checks.
Youngevity also threatened its other distributors,
implying that their distributorships—and thus the
distributors’ livelihoods—would be terminated if they
contemplated joining Wakaya.
197. Moreover, Youngevity and its agents have engaged in a concerted campaign to smear and defame

39a
Wakaya in an effort to deter potential distributors
from joining Wakaya, either in addition to or instead
of acting as distributors for Youngevity.
198. Youngevity distributors who had expressed
interest in joining Wakaya have been intimidated and
deterred from becoming Wakaya distributors.
199. Wakaya has been damaged in an amount to be
proven at trial because Youngevity has prevented
qualified distributors from joining Wakaya’s sales
force.
EIGHTH CLAIM FOR RELIEF
(Tortious Interference with Prospective Economic
Advantage – Youngevity, Briskie, Steve Wallach)
200. Counterclaim Plaintiffs hereby incorporate
paragraphs 1 through 199 of this Complaint by
reference, as if fully set forth herein.
201. As detailed in paragraphs 39 and 83-85 above,
Graham, through TNT, is owner of a website, phone
number, and other intellectual property that he and
Smith developed while distributors at Youngevity.
Following the termination of his distributorship by
Youngevity, Graham received an offer to purchase
these valuable assets from a Youngevity distributor in
good standing.
202. Youngevity knew of the possible sale.
203. Briskie and Steve Wallach vindictively informed the buyer that they would not approve of the
sale if any proceeds from the sale would flow to either
Graham or Smith.
204. As a result, the buyer withdrew his offer, and
Graham has been unable to sell his interest in the

40a
website, phone number, and other copyrighted
materials owned by Graham and TNT.
205. Graham and TNT have been harmed by
Youngevity’s actions because they were unable to
complete the sale of their assets and because Briskie
and Steve Wallach have indicated they will not
approve ANY sale of the assets.
NINTH CLAIM FOR RELIEF
(Defamation – Youngevity, Dr. Wallach,
Michelle Wallach, Steve Wallach)
206. Counterclaim Plaintiffs hereby incorporate
paragraphs 1 through 205 of this Complaint by
reference, as if fully set forth herein.
207. In a public conversation with several Youngevity distributors, Dr. Wallach falsely accused Smith
and Graham of crimes, including theft and industrial
espionage. Dr. Wallach also falsely accused Dave
and Barb of destroying several multilevel marketing
companies with which they had previously worked.
208. Michelle Wallach fabricated emails accusing
Barb of cross-recruiting with the intent of harming
Barb’s reputation within the direct-sales community.
209. In an email widely disseminated to Youngevity distributors, Steve Wallach accused Smith,
Wakaya, and the Distributor Counterclaim Plaintiffs
of engaging in theft, misappropriation of confidential
information, and other acts incompatible with the
operation of Counterclaim Plaintiffs’ lawful businesses.
210. Counterclaim Defendants alleged numerous
false and defamatory statements in the Verified
Complaint, as described in paragraphs 100 through
127 above, which counsel for Plaintiffs’ subsequently

41a
publicized and published widely within the networkmarketing community. On information and belief,
Counterclaim Defendants have publicized and published other filings in this and related litigation, which
contain similar false or defamatory material.
211. Counterclaim Defendants knew their statements were false, or in the alternative, recklessly
disregarded the falsity of their statements.
212. These statements were not privileged and/or
Counterclaim Defendants have waived any privilege
through excessive publication.
213. Counterclaim Plaintiffs’ reputations and businesses have been harmed and Counterclaim Plaintiffs
are entitled to an award of actual, special, and
exemplary damages in an amount to be determined at
trial.
TENTH CLAIM FOR RELIEF
(False Light – Youngevity, Dr. Wallach,
Michelle Wallach)
214. Counterclaim Plaintiffs hereby incorporate
paragraphs 1 through 213 of this Complaint by
reference, as if fully set forth herein.
215. Dr. Wallach publicly and falsely accused Smith
and Graham of engaging in criminal activity and
falsely accused Dave and Barb of raiding and destroying four businesses with which they had previously
worked.
216. Michelle Wallach fabricated emails purporting
to show that Barb cross-recruited.
217. In a widely publicized email, Steve Wallach
falsely accused Smith, Wakaya, and the Distributor
Counterclaim Plaintiffs of engaging in theft, misap-

42a
propriation of confidential information, and other acts
of dishonesty.
218. In the Verified Complaint, Youngevity falsely
accused Smith of committing international crimes.
219. Counterclaim Defendants, through their legal
counsel and other agents, subsequently publicized and
published the Verified Complaint and, on information
and belief, other filings in this and related litigation,
which contain similar false or defamatory material.
220. These statements would be highly offensive to
a reasonable person.
221. Counterclaim Defendants knew their statements were false, or in the alternative, recklessly
disregarded the falsity of their statements.
222. Counterclaim Plaintiffs’ reputations and businesses have been harmed by Counterclaim Defendants
statements and Counterclaim Plaintiffs are entitled to
an award of actual, special, and exemplary damages in
an amount to be determined at trial.
ELEVENTH CLAIM FOR RELIEF
(Business Disparagement – Youngevity)
223. Counterclaim Plaintiffs hereby incorporate
paragraphs 1 through 222 of this Complaint by
reference, as if fully set forth herein.
224. Counterclaim Defendants have publicized and
published numerous statements relating to Wakaya’s
products and business activities, including those
contained in the Verified Complaint and other filings
in this and related litigation.
225. These statements are false or highly offensive
to a reasonable person.

43a
226. As a result of Counterclaim Defendants’ false
statements, Wakaya has suffered economic losses
due to decreased sales and distributors who were
deterred from associating with Wakaya.
227. Counterclaim Defendants intended to harm
Wakaya’s business when they made these false
statements.
228. Wakaya has suffered damages in an amount to
be proven at trial. TWELFTH CLAIM FOR RELIEF
(Unfair Competition – all Counterclaim Defendants)
(Cal. Bus. & Prof. Code § 17200 et seq.)
229. Counterclaim Plaintiffs hereby incorporate
paragraphs 1 through 228 of this Complaint by
reference, as if fully set forth herein.
230. California’s Unfair Competition Law (“UCL”)
borrows violations from other laws by making them
independently actionable as unfair competitive
practices.
231. Virtually any violation of federal, state, or local
law can form the predicate offense under California’s
UCL.
232. Counterclaim Defendants’ actions in summarily terminating the Distributor Counterclaim Plaintiffs’ distributorships without cause constitutes unfair competition under California law.
233. Counterclaim Defendants’ attempts to enforce
unlawful noncompete and nonsolicitation provisions
constitutes unfair competition under California law.
234. Counterclaim Defendants’ actions in threatening and intimidating Youngevity distributors, including the Distributor Counterclaim Plaintiffs, in an
attempt to prevent distributors from working for

44a
Wakaya constitutes unfair competition under California law.
235. Counterclaim Defendants’ conversion of the
Distributor Counterclaim Plaintiffs’ businesses, and
the profits derived therefrom, constitutes unfair competition under California law.
236. Counterclaim Defendants’ interference in the
sale of Graham’s interest in the wallachonline.com, 1800-WALLACH, and assorted media items constitutes
unfair competition under California law.
237. Counterclaim Defendants’ actions in conspiring to interfere with Wakaya’s and the Distributor
Counterclaim Plaintiffs existing and prospective economic relations constitutes unfair competition under
California law.
238. Counterclaim Defendants’ conspiracy to publish and publicize defamatory statements constitute
unfair competition under California law.
239. As a result of Counterclaim Defendants’ unlawful, unfair, or fraudulent practices, Counterclaim
Plaintiffs have suffered and continue to suffer damages in an amount to be proved at trial.
THIRTEENTH CLAIM FOR RELIEF
(Fraud/Negligent Misrepresentation –
Youngevity and Briskie)
240. Counterclaim Plaintiffs hereby incorporate
paragraphs 1 through 239 of this Complaint by
reference, as if fully set forth herein.
241. As detailed in paragraphs 55 through 62 above,
in his capacity as Chief Financial Officer of Youngevity, Briskie represented to Smith and other Youngevity distributors at a public Youngevity event that

45a
Youngevity had complied with all of the necessary
legal requirements to open Youngevity businesses in
Mexico.
242. At the time he made these statements, Briskie
knew they were false. Alternatively, Briskie made the
statements without a reasonable basis for believing
them to be true.
243. Nevertheless, Briskie intended Smith and the
other Youngevity representatives present at the meeting to rely on his statements.
244. Based on Briskie’s position as Chief Financial
Officer of Youngevity, and the officer in charge of
international expansion, Smith’s reliance on Briskie’s
statement that Mexico was “open for business” was
reasonable.
245. In reliance on Briskie’s statements, Smith
expended spent significant time and money on preparations for opening Youngevity businesses in Mexico.
246. Accordingly, Smith was damaged in an amount
to be proved at trial.
PRAYER FOR RELIEF
WHEREFORE, Counterclaim Plaintiffs pray for
judgment against Counterclaim Defendants as follows:
1. UNDER THE FIRST CLAIM FOR RELIEF, for
declaratory relief as set forth in such claim plus
reasonable attorney fees and costs incurred in this
manner;
2. UNDER THE SECOND CLAIM FOR RELIEF,
for judgment against Youngevity for all damages
suffered by the Distributor Counterclaim Plaintiffs
related to Youngevity’s breach of contract plus reasonable attorney fees and costs incurred in this matter;

46a
3. UNDER THE THIRD CLAIM FOR RELIEF, for
judgment against Youngevity for all damages suffered
by the Distributor Counterclaim Plaintiffs related to
Youngevity’s breach of the implied covenant of good
faith and fair dealing plus reasonable attorney fees
and costs incurred in this matter;
4. UNDER THE FOURTH CLAIM FOR RELIEF,
for judgment against Youngevity for all damages
suffered by the Distributor Counterclaim Plaintiffs
related to Youngevity’s conversion of the Distributor
Counterclaim Plaintiffs’ property, including their
Youngevity businesses and all associated profits, and
an award of exemplary damages pursuant to California Civil Code section 3294, plus reasonable attorney
fees and costs incurred in this matter;
5. UNDER THE FIFTH CLAIM FOR RELIEF, for
judgment against Youngevity for all damages suffered
by the Distributor Counterclaim Plaintiffs related to
Youngevity’s tortious interference with the Distributor Counterclaim Plaintiffs’ economic relationships
with their distributor networks and an award of
exemplary damages pursuant to California Civil Code
section 3294, plus reasonable attorney fees and costs
incurred in this matter;
6. UNDER THE SIXTH CLAIM FOR RELIEF, for
judgment against Youngevity for all damages suffered
by Wakaya related to Youngevity’s tortious interference with Wakaya’s economic relationships with Live
Well and Anson; disgorgement of all profits related to
Youngevity’s new Bula Bottle-like product, which was
obtained through such tortious interference; an award
of exemplary damages pursuant to California Civil
Code section 3294; and reasonable attorney fees and
costs incurred in this matter;

47a
7. UNDER THE SEVENTH CLAIM FOR RELIEF, for judgment against Youngevity for all damages suffered by Wakaya related to Youngevity’s
tortious interference with Wakaya’s prospective economic relationships with qualified distributors and an
award of exemplary damages pursuant to California
Civil Code section 3294, plus reasonable attorney fees
and costs incurred in this matter;
8. UNDER THE EIGHTH CLAIM FOR RELIEF,
for judgment against Youngevity, Steve Wallach, and
Briskie for all damages suffered by Graham and TNT
related to Youngevity’s tortious interference in the
sale of the Counterclaim Plaintiffs’ valuable assets
and an award of exemplary damages pursuant to
California Civil Code section 3294, plus reasonable
attorney fees and costs incurred in this matter;
9. UNDER THE NINTH CLAIM FOR RELIEF,
for judgment against Youngevity, Dr. Wallach,
Michelle Wallach, and Steve Wallach for all damages
suffered by Counterclaim Plaintiffs related to Counterclaim Defendants’ defamatory statements and an
award of exemplary damages pursuant to California
Civil Code section 3294, plus reasonable attorney fees
and costs incurred in this matter;
10. UNDER THE TENTH CLAIM FOR RELIEF,
for judgment against Youngevity, Dr. Wallach,
Michelle Wallach, and Steve Wallach for all damages
suffered by Counterclaim Plaintiffs related to Counterclaim Defendants’ false statements and an award of
exemplary damages pursuant to California Civil Code
section 3294, plus reasonable attorney fees and costs
incurred in this matter;
11. UNDER THE ELEVENTH CLAIM FOR
RELIEF, for judgment against Youngevity for all dam-

48a
ages suffered by Wakaya as a result of Counterclaim
Defendants’ false statements and an award of
exemplary damages pursuant to California Civil Code
section 3294, plus reasonable attorney fees and costs
incurred in this matter;
12. UNDER THE TWELFTH CLAIM FOR RELIEF, judgment against all Counterclaim Defendants
and an injunction requiring Counterclaim Defendants
to (1) cease their attempts at enforcing invalid and
unlawful contractual provisions; (2) cease their efforts
at threatening and intimidating existing Youngevity
distributors from working with Wakaya, as is their
legal right; (3) cease publicizing and publishing false
and defamatory material about Counterclaim Plaintiffs; and (4) cease their efforts to interfere with
Wakaya and the Distributor Counterclaim Plaintiffs’
existing and prospective economic relations, as described in this Counterclaim;
13. UNDER THE THIRTEENTH CLAIM FOR
RELIEF, judgment against Youngevity and Briskie for
all damages suffered by Smith as a result of Briskie’s
fraudulent announcement that Youngevity distributors could operate in Mexico and an award of exemplary damages pursuant to California Civil Code
section 3294, plus reasonable attorney fees and costs
incurred in this matter;
14. UNDER ALL CLAIMS, for any additional relief
deemed proper by the Court.

49a
JURY DEMAND
Counterclaim Plaintiffs respectfully request a jury
as to all claims so triable.
Respectfully Submitted this 23rd day of February
2017.
PARR BROWN GEE & LOVELESS
/s/ Jonathan R. Schofield
Jonathan O. Hafen
Jonathan R. Schofield
HURST & HURST
Kyle Van Dyke
Attorneys for Defendants and
Counterclaim Plaintiffs

50a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF CALIFORNIA
[Filed 03/09/17]

————

Case No.: 16-CV-704-BTM-JLB
————
YOUNGEVITY INTERNATIONAL CORP.,
a Delaware corporation; and
JOEL D. WALLACH, DVM, ND, a California resident,
Plaintiffs,

v.
TODD SMITH, et al.,
————

Defendants.

TODD SMITH; WAKAYA PERFECTION; TOTAL NUTRITION
TEAM dba TNT; BLAKE GRAHAM; ANDRE VAUGHN;
DAVE PITCOK; and BARB PITCOCK,
Counterclaim Plaintiffs,
v.
YOUNGEVITY INTERNATIONAL, INC.;
DR. JOEL WALLACH; STEVE WALLACH;
MICHELLE WALLACH; DAVE BRISKIE,
Counterclaim Defendants.
————
Date: May 5, 2017
Judge: Hon. Barry T. Moskovitz
Magistrate Judge: Jill L. Burkhardt
————

51a
————
PER CHAMBERS, NO ORAL ARGUMENT
UNLESS REQUEST BY THE COURT
————
Peter A. Arhangelsky, Esq. (SBN 291325)
parhangelsky@emord.com
Jonathan W. Emord (pro hac vice)
jemord@emord.com
Eric J. Awerbuch (pro hac vice)
eawerbuch@emord.com
Emord & Associates, P.C.
2730 S. Val Vista Dr.
Bldg. 6, Ste. 133
Gilbert, AZ 85295
Phone: (602) 388-8899
Fax: (602) 393-4361
Attorneys for Plaintiffs/Counterclaim Defendants
————
COUNTERCLAIM DEFENDANTS’
NOTICE OF MOTION AND SPECIAL MOTION
TO STRIKE (Cal. Code Civ. Proc. § 425.16)
AND MOTION TO DISMISS
PURSUANT TO FRCP 12(b)(6)
Counterclaim defendants Youngevity International
Corp., Dr. Joel D. Wallach, Steve Wallach, Michelle
Wallach, and Dave Briskie (collectively “Youngevity”)
hereby move for an Order Striking under Cal. Code.
Civ. Proc. § 425.16 (the California anti-SLAPP statute)
all of Counts 6, 7, 9, 10, 11, and part of 12 (collectively,
“the Defamation Counts”) in the Counterclaims filed
by Wakaya Perfection, LLC, Todd Smith, Total Nutrition Inc., Blake Graham, Andre Vaughn, Dave Pitcock,
and Barb Pitcock’s (collectively “Counterclaimants”).

52a
See Dkt. 83 at ¶¶ 37–69. Youngevity also requests that
this Court dismiss with prejudice Counts 1, 2, 3, 4, and
5, 7 and 8; part of Count 12; and part of Count 13
of the Counterclaim under the “first to file” rule. In
the alternative, Youngevity requests that this Court
dismiss Counts 1–5 of the Counterclaims because
those claims are subject to binding arbitration; and/or
dismiss Counts 1, 4-11, and 13 pursuant to Federal
Rules of Civil Procedure 8(a), 9(b), and 12(b)(6).
Cal. Code Civ. Proc. § 425.16 is California’s AntiSLAPP statute. That statute requires prompt dismissal of claims that seek to chill litigants’ constitutional
right to free speech and petition. See Cal. Civ. Proc.
Code § 425.16(b)(1). To determine whether the statute
applies, the Court first determines whether Youngevity has made a prima facie showing that Counterclaimants’ claims arise from a protected act under the
statute. If the content is protected, the burden then
shifts to the Counterclaimants to demonstrate a probability that they will prevail on the claim. Counterclaimants’ Defamation Counts (i.e., Counts 6, 7, 9, 10,
11, and part of 12) all arise out of protected activity
because they are all based on Youngevity’s litigation
activity. Further, Counterclaimants have no likelihood of success on the merits of the Defamation
Counts because Youngevity’s statements on which
those Counts are based are privileged and therefore
cannot form a basis of a tort claim.
In addition, this Court should dismiss Counts 1, 2,
3, 4, 5, 7, 8, and parts of 12 and 13 because
Counterclaimants have already filed substantively
identical claims against identical parties in the United
States District Court for the District of Utah. On
March 17, 2016, Wakaya Perfection filed a lawsuit
against Youngevity in the United States District Court

53a
for the District of Utah. See Wakaya Perfection, LLC v.
Youngevity International, Inc., Case No. 2:16-cv00315-DN (D. Utah). On April 15, 2016, the Counterclaimants in this case filed an Amended Complaint in
that Case against the same parties who are now
Counterclaim defendants in this case. That Amended
Complaint advanced claims substantively identical to
Counts 1, 2, 3, 4, 5, 7, 8, and parts of 12 and 13 in the
Counterclaim at issue here. Youngevity’s Motion to
Dismiss the Amended Utah Complaint is fully briefed
and the parties await a decision. All of the factors in
the first-to-file analysis (chronology of the actions,
similarity of the parties, and similarity of the issues)
are present and require dismissal of Counts 1, 2, 3, 4,
5, 7, 8, and parts of 12 and 13.
In the alternative, Youngevity requests that this
Court dismiss Counts 1–5 because those Counts are
subject to binding arbitration. Those Counts rely upon
an Agreement the Counterclaimants allege is valid
and binding between the parties. That same Agreement, attached to their Counterclaim, contains an
arbitration clause mandating that the parties submit
all distributor disputes to binding arbitration. Dkt. 83,
at Exh. A, § J 9.
Also in the alternative, Youngevity requests that
this Court dismiss Counts 1 and 4, 5, 6, 7, 8, 9, 10, 11,
and 13 under Federal Rules of Civil Procedure 8(a) and
12(b)(6). Counterclaimants fail to sufficiently plead
each of those claims. In Count 1 they seek declaratory
relief without establishing the existence of any case or
controversy. In Count 4, they allege that Youngevity
converted their property without sufficiently identifying the property said to be converted. In Count 5, their
allegation that Youngevity tortiously interfered with
their contractual relations merely recasts their breach

54a
of contract claim from Count 2 as a tort claim. Their
claims for tortious interference with prospective economic relations in Counts 6, 7 and 8 fails to provide
notice of those claims to Youngevity to allow Youngevity to marshal a defense In the Defamation Counts
they allege that Youngevity defamed, but the speech
complained of is not defamatory and is absolutely
privileged under California law. In Count 13, they fail
to allege with sufficient specificity how Youngevity
intended for Defendant Smith to rely on the allegedly
fraudulent statements.
In sum, as explained in the attached memorandum
of law, this Court should strike Counts 6, 7, 9, 10, 11,
and part of 12, and dismiss with prejudice Counts 1, 2,
3, 4, and 5, 7 and 8, part of 12, and 13.
Dated: March 9, 2017
Respectfully submitted,
Plaintiffs/Counter-Defendants
By: s/ Peter A. Arhangelsky
Attorney for Plaintiffs/
Counterclaim Defendants
parhangelsky@emord.com
Jonathan W. Emord
jemord@emord.com
Eric Awerbuch
eawerbuch@emord.com
Emord & Associates, P.C.
2730 S. Val Vista Dr.
Bldg. 6, Ste. 133
Gilbert, AZ 85295
Phone: (602) 388-8899
Fax: (602) 393-4361

55a
APPENDIX C
2017 WL 6389776
UNITED STATES DISTRICT COURT,
S.D. CALIFORNIA
————
Case No.: 16-cv-704-BTM-JLB
————
YOUNGEVITY INTERNATIONAL CORP., et al.,
Plaintiffs,
v.
TODD SMITH, et al.,
Defendants.
WAKAYA PERFECTION, LLC, et al.,
Counter Claimants,
v.
YOUNGEVITY INTERNATIONAL CORP.,
Counter Defendants.
————
Signed 12/13/2017
————
Attorneys and Law Firms
Bethany R. Kennedy, Eric Jordan Awerbuch, Peter A.
Arhangelsky, Emord & Associates PC, Gilbert, AZ,
James Stephen McAuliffe, III, Miles & Stockbridge
P.C., Rockville, MD, Jonathan W. Emord, Emord and
Associates, Clifton, VA, Joshua Scott Furman, Emord
and Associates PC, Chandler, AZ, Laura Golden Liff,
Miles & Stockbridge P.C., Tysons Corner, VA, Martin

56a
R. Denney, The Denney Law Firm, Salt Lake City, UT,
Corrie J. Klekowski, Paul Plevin Sullivan & Connaughton LLP, San Diego, CA, for Plaintiffs/Counter
Defendants.
Cynthia Love, Jonathan O. Hafen, Jonathan R.
Schofield, Michael S. Anderson, Parr Brown Gee &
Loveless, Salt Lake City, UT, Darwin Poyfair, Reese
Poyfair Richards, PLLC, Cottonwood Heights, UT,
Kyle M. Van Dyke, Hurst & Hurst, San Diego, CA, for
Defendants/Counter Claimants.
————
ORDER DENYING AND GRANTING
IN PART COUNTERCLAIM DEFENDANTS’
ANTI-SLAPP MOTION TO STRIKE AND
MOTION TO DISMISS [ECF No. 90]
Barry Ted Moskowitz, Chief Judge
On March 9, 2017, Plaintiffs and Counterclaim
Defendants Youngevity International Corp. (“Youngevity”), Dr. Joel D. Wallach, Steve Wallach, Michelle
Wallack, and Dave Briskie (collectively “Counterclaim
Defendants”) filed a special motion to strike pursuant
to California Code of Civil Procedure § 425.16 and/or
dismiss the Counterclaim (“CC”) filed by Wakaya
Perfection, LLC (“Wakaya”), Todd Smith, Total
Nutrition Inc. (“TNT”), Blake Graham, Andre Vaughn,
Dave Pitcock, and Barb Pitcock (collectively “Counterclaimants”). (Countercl. Defs.’ Mot. to Strike, ECF No.
90.)
I. BACKGROUND
On February 23, 2017, Counterclaimants filed a
First Amended Answer and Counterclaim (“CC”)
against Counterclaim Defendants alleging the
following causes of action: (1) Declaratory Judgment

57a
against Youngevity; (2) breach of contract against
Youngevity; (3) breach of the covenant of good faith
and fair dealing against Youngevity; (4) conversion
against Youngevity; (5) tortious interference with
existing economic relations against Youngevity; (6)
tortious interference with existing economic relations
against Youngevity; (7) tortious interference with
prospective economic advantage against Youngevity;
(8) tortious interference with prospective economic
advantage against Youngevity, Briskie, and Steve
Wallach; (9) Defamation against Youngevity, Dr.
Wallach, Michelle Wallach, and Steve Wallach; (10)
False Light against Youngevity, Dr. Wallach, and
Michelle Wallach; (11) Business Disparagement
against Youngevity; (12) Unfair Competition, Cal.
Bus. & Prof. Code § 17200 et seq. against all
Counterclaim Defendants; and (13) Fraud/Negligent
Misrepresentation against Youngevity and Briskie.
(ECF No. 83.)
II. DISCUSSION
A. California Code of Civil Procedure § 425.16,
Anti-SLAPP Motion
California Code of Civil Procedure § 425.16, the
Anti-Strategic Lawsuits Against Public Participation1
(“Anti-SLAPP”) law, provides in relevant part:
(b)(1) A cause of action against a person
arising from any act of that person in
furtherance of the person’s right of petition or
free speech under the United States Constitution or the California Constitution in connection with a public issue shall be subject to a
special motion to strike, unless the court
1

SLAPP stands for “Strategic Lawsuits Against Public
Participation.”

58a
determines that the plaintiff has established
that there is a probability that the plaintiff
will prevail on the claim.
(2) In making its determination, the court
shall consider the pleadings, and supporting
and opposing affidavits stating the facts upon
which the liability or defense is based.
Courts apply a two-part test to determine whether
an action is subject to an anti-SLAPP special motion
to strike. Navellier v. Sletten, 29 Cal.4th 82, 85, 88,
124 Cal.Rptr.2d 530, 52 P.3d 703 (2002). First, the
defendant must establish that “the challenged cause
of action is one arising from protected activity.” Id.
at 88, 124 Cal.Rptr.2d 530, 52 P.3d 703. Once a
defendant makes a threshold showing that the act in
question is protected, the burden shifts to the plaintiff.
To resist the special motion to strike, the plaintiff
must establish “a probability of prevailing on the
claim.” Navellier, 29 Cal.4th at 88, 124 Cal.Rptr.2d
530, 52 P.3d 703. In federal court, “the claim should be
dismissed if the plaintiffs presents an insufficient
legal basis for it, or if, on the basis of the facts shown
by the plaintiff, ‘no reasonable jury could find for the
plaintiff.’ ” Makaeff v. Trump Univ., LLC, 715 F.3d
254, 261 (9th Cir. 2013) (citing Metabolife Int’l, Inc. v.
Wornick, 264 F.3d 832, 840 (9th Cir. 2001)). For a
“mixed cause of action,” a court may rule on a
plaintiff’s specific allegations of protected activity
“rather than reward artful pleading by ignoring such
claims if they are mixed with assertions of unprotected
activity.” Baral v. Schnitt, 1 Cal.5th 376, 393, 205
Cal.Rptr.3d 475, 376 P.3d 604 (2016).
Counterclaim Defendants move to strike counterclaims six, seven, nine, ten, eleven, and part of twelve,
arguing that the conduct on which they are based

59a
constitutes protected activity because it directly relates to litigation activity and is absolutely privileged
under California Civil Code section 47. Counterclaimants, on the other hand, argue that the alleged false
defamatory statements are exempt from the antiSLAPP statute because they constitute commercial
speech. The Court addresses each of these arguments
below.
1. “Arising From” Requirement
First, Counterclaim Defendants must demonstrate
that the challenged causes of action “‘aris[e] from’
protected activity in which the defendant has engaged.” Park v. Bd. of Trs. of Cal. State Univ., 2
Cal.5th 1057, 1061, 217 Cal.Rptr.3d 130, 393 P.3d 905
(2017) (quoting Cal. Civ. Proc. Code § 425.16(b)). The
anti-SLAPP statute defines protected activity as:
(1) any written or oral statement or writing
made before a legislative, executive, or judicial proceeding, or any other official proceeding authorized by law, (2) any written or oral
statement or writing made in connection with
an issue under consideration or review by a
legislative, executive, or judicial body, or any
other official proceeding authorized by law,
(3) any written or oral statement or writing
made in a place open to the public or a public
forum in connection with an issue of public
interest, or (4) any other conduct in furtherance of the exercise of the constitutional right
of petition or the constitutional right of free
speech in connection with a public issue or an
issue of public interest.
Cal. Civ. Proc. Code § 425.16(e).

60a
“A claim arises from protected activity when that
activity underlies or forms the basis for the claim.”
Park, 2 Cal.5th at 1062 (emphasis added). Courts
ruling on anti-SLAPP motions must determine “what
the defendant’s activity is that gives rise to his or her
asserted liability—and whether that activity constitutes protected speech or petitioning.” Id. at 1063
(citations omitted). The mere fact that an action was
triggered by protected activity does not mean that it
“arose from that activity for the purposes of the antiSLAPP statute.” Id. at 1063; see City of Cotati v.
Cashman, 29 Cal.4th 69, 78, 124 Cal.Rptr.2d 519, 52
P.3d 695 (2002) (“[A] claim filed in response to, or in
retaliation for, threatened or actual litigation is not
subject to the anti-SLAPP statute simply because it
may be viewed as an oppressive litigation tactic.”).
Thus, the only means by which a defendant can meet
its burden under the anti-SLAPP statute is by
demonstrating “that the defendant’s conduct by which
plaintiff claims to have been injured falls within one of
the four categories described in [Cal. Civ. Proc. Code §
425.16(e) ].” Parks, 2 Cal.5th at 1063.
Counterclaimants’ sixth, seventh, ninth, tenth,
eleventh, and in part, twelfth causes of action all
appear to depend, in part, on the following speech and
conduct: (1) allegations contained within the Verified
Complaint; (2) Youngevity’s press release announcing
the initiation of this action, which was sent to a trade
publication; (3) republication of the Verified Complaint to nonparticipating third parties including Rick
Ansen; (4) Dr. Wallach’s oral statements to Youngevity distributors about Smith, Graham, and the
Pitcocks; (5) Michelle Wallach’s fabricated emails
accusing Barb Pitcock of cross-recruiting; and (6)
Steve Wallach’s email to Youngevity distributors. (CC
¶¶ 88–128.) The Court discusses each below to

61a
determine whether any of these activities constitute
protected speech or petitioning under the anti-SLAPP
statute. See Park, 2 Cal.5th at 1063. The Court finds
that the first three types of statements are protected
under the anti-SLAPP statute.
First, the allegations contained within the Verified
Complaint constitute protected speech because they
are statements made before a judicial proceeding. See
Cal. Civ. Proc. Code § 425.16(e)(1); see also Navellier,
29 Cal.4th at 90, 124 Cal.Rptr.2d 530, 52 P.3d 703
(“A claim for relief filed in a federal district court
indisputably is a ‘statement or writing made before a
... judicial proceeding.’”). Second, the press release
that Youngevity forwarded to a trade publication,
businessforhome.org (“BFH”), constitutes protected
speech because it is a statement made “in connection”
with this action. See Fremont Reorg. Corp. v. Faigin,
198 Cal. App. 4th 1153, 1167, 131 Cal.Rptr.3d 478
(2011) (“A statement is ‘in connection with’ an issue
under consideration by a court in a judicial proceeding
... if it relates to a substantive issue in the proceeding
and is directed to a person having some interest in
the proceeding.”). The Court finds that it was directed
at people with “some interest in the proceeding,” as
Youngevity is a publicly traded corporation and the
press release was sent to a trade publication and
read by individuals in the multi-level marketing
community.
Finally, the republication of the Verified Complaint
to non-participating third parties, including Rick
Ansen, is also protected under the anti-SLAPP statute
as a statement made “in connection” with this action
and directed at someone with some interest in the
matter.

62a
Counterclaim Defendants have thus met their
burden as to step one. As to the remaining statements,
the Court agrees with Counterclaimants that they
constitute commercial speech and are thus exempt
from the anti-SLAPP statute.
2. Commercial Speech Exemption
Counterclaimants argue that the statements
underlying the causes of action are commercial speech
not protected within the anti-SLAPP statute.
California Civil Procedure Code § 425.17 lays out
numerous exemptions from the anti-SLAPP statute,
including the commercial speech exemption. Cal. Civ.
Proc. Code § 425.17(c). The commercial speech
exemption applies when:
(1) the cause of action is against a person
primarily engaged in the business of selling
or leasing goods or services; (2) the cause of
action arises from a statement or conduct by
that person consisting of representations
of fact about that person’s or a business
competitor’s business operations, goods, or
services; (3) the statement or conduct was
made either for the purpose of obtaining
approval for, promoting or securing sales or
leases of, or commercial transactions in, the
person’s goods or services or in the course of
delivering the person’s goods or services; and
(4) the intended audience for the statement or
conduct meets the definition set forth in
section 425.17(c)(2).
Simpson Strong-Tie Co., Inc. v. Gore, 49 Cal. 4th 12,
30, 109 Cal.Rptr.3d 329, 230 (P.3d 1117 2010).

63a
Here, Counterclaimants allege three types of speech
that fall within the commercial speech exemption.
First, they allege that Dr. Wallach made several
defamatory oral statements to Youngevity distributors
accusing Smith and Graham of stealing Youngevity’s
distributors, money, and property, and the Pitcocks of
“raiding” multi-level marketing companies. Second,
they allege that Michelle Wallach fabricated emails
accusing Barb Pitcock of cross-recruiting. Though the
Counterclaim is less specific as to who these emails
were directed to, a reasonable inference from the
pleadings reveals that they were directed to Youngevity distributors, as it is alleged that they “were
intended to discredit Barb and damage her reputation
both within Youngevity and in the larger direct
marketing community.” (CC ¶ 51.) Finally, Counterclaimants allege that Steve Wallach’s email to the
Youngevity network of distributors accusing Smith,
Wakaya, and distributor Counterclaimants of “engaging in theft, misappropriation of confidential information, and breaching various provisions of the
Youngevity Policies and Procedures” is exempt from
the anti-SLAPP statute. (CC ¶ 98.) The Court relies on
the four Simpson factors in concluding that these
statements constitute commercial speech.
First, the causes of action grounded in these statements, counts seven, nine, ten, and eleven in particular, are all against Youngevity and its top officers.
They all qualify as “persons primarily engaged in the
business of selling or leasing goods or services.”
Simpson, 49 Cal. 4th at 30, 109 Cal.Rptr.3d 329, 230
P.3d 1117. Youngevity and its officers are in the
business of selling Youngevity products. (Pl.s’ Fourth
Amended Complaint (“FAC”), ECF No. 269, ¶ 2–11.)

64a
Second, the counterclaims arise out of statements of
fact about Wakaya, its founder and employees, and
operations. Counterclaim Defendants argue that these
statements cannot constitute commercial speech because they concern individual characters and actions
and not business operations, goods, or services....”
(Countercl. Def.s’ Reply, ECF No. 112, 3.) However,
both Youngevity and Wakaya’s business models
depend on the distribution of its consumer products
through independent direct-sellers known as “distributors” who serve as the companies’ agents. The
representations of fact the Wallachs made about
Wakaya being established as a result of crossrecruiting or Smith’s alleged misappropriation of
Youngevity’s property, all constitute representations
of fact about “a business competitor’s business
operations, goods, or services.” See id. at 30, 109
Cal.Rptr.3d 329, 230 P.3d 1117.
Third, and arguably the most disputed factor, is
whether the statements at issue were “made either for
the purpose of obtaining approval for, promoting or
securing sales or leases of, or commercial transactions
in, the person’s goods or services or in the course of
delivering the person’s goods or services....” Simpson,
49 Cal.4th at 30, 109 Cal.Rptr.3d 329, 230 P.3d 1117.
The Court finds that these statements were made
for the purposes of promoting or securing the sale
of Youngevity’s goods. As already discussed, Youngevity’s business and profitability depends on the
preservation of its distributors and their respective
“uplines” and “downlines.” (FAC ¶ 5.) As Youngevity
pleads, “[t]he integrity of the Youngevity genealogies
is essential to Youngevity’s business model.” (Id.) The
clearest example is perhaps Steve Wallach’s email to
Youngevity distributors. It begins by addressing it to
“All Our Loyal Distributors and Friends.” (CC, Ex. C.)

65a
The email then dedicates the next three pages to, on
the one hand, accusing Counterclaimants of violating
Youngevity’s company rules and poaching downlines,
and on the other, reassuring those loyal distributors
that Youngevity is committed to protecting their
business and livelihoods. The email states in relevant
part:
Those loyal to Youngevity, who faithfully
uphold the company’s rules, may rest assured
that the company will protect their interests
from those whose acts of betrayal would
otherwise steal their downlines. Those disloyal to Youngevity, who recruit the company’s distributors to competing companies,
should be aware that the company will enforce its rules and end their distributorships,
causing their commissions to be forfeited
permanently.
(Id.)
Though perhaps not a conventional sale presentation, it is reasonable to infer that the Wallachs made
these statements in an effort to preserve their
downlines and business. See E.D.C. Techs. v. Seidel,
225 F.Supp.3d 1058, 1066 (N.D. Cal. 2016) (finding
commercial speech where the “emails were undoubtedly written to ‘reassure customers’ and ‘to dispel
confusion.’”); see also Weiland Sliding Doors &
Windows, Inc. v. Panda Windows & Doors, LLC, 814
F.Supp.2d 1033, 1039 (S.D. Cal. 2011) (finding that
plaintiff’s oral statement to defendant’s potential
customers constituted commercial speech where it
communicated that they could be sued if they
purchased defendant’s products).

66a
Lastly, the Court finds that the intended audience,
Youngevity distributors, were “an actual or potential
buyer[s] or customer[s], or ... person[s] likely to repeat
the statement to, or otherwise influence an actual
potential buyer or customer.” Simpson, 49 Cal.4th at
30, 109 Cal.Rptr.3d 329, 230 P.3d 1117.
The Court therefore concludes that counterclaims
seven, nine, ten, and eleven based on Dr. Wallach’s
oral statements, Michelle Wallach’s email, and Steve
Wallach’s email are exempt from anti-SLAPP
procedure under the commercial speech exemption.
3. Counterclaimants’ Probability of Prevailing
on the Merits
Having determined what alleged speech and
conduct is protected under the anti-SLAPP statute,
the Court next turns to Counterclaimants’ probability
of prevailing on the merits. As the Supreme Court of
California has held, a plaintiff cannot defeat an antiSLAPP motion by merely establishing a probability of
prevailing on any part of a pleaded cause of action.
Baral, 1 Cal.5th at 392. Instead, “the plaintiff must
make the requisite showing as to each challenged
claim that is based on allegations of protected activity.” Id. Though how a plaintiff meets this standard
varies with every case, “when the defendant seeks to
strike particular claims supported by allegations of
protected activity that appear alongside other claims
within a single cause of action, the motion cannot be
defeated by showing a likelihood of success on the
claims arising from unprotected activity.” Id. Because
some of the counterclaims are based on both protected
and unprotected activity, the Court for the purposes of
this analysis focuses on the sufficiency of the claims
arising from protected activity. Counterclaim Defendants argue that Counterclaimants cannot prevail on

67a
their claims because they are barred by California’s
litigation and fair reporting privileges under California Civil Code section 47.
i.

Application of California Privilege Law

It is worth noting at the outset that Counterclaimants dispute the application of California’s privileges,
arguing that federal common law controls here.
Federal Rule of Evidence 501 states that “in a civil
case, state law governs privileges regarding a claim or
defense for which state law supplies the rule of
decision.” Fed. R. Evid. 501. Pursuant to Federal Rule
of 501, assertion of privileges in federal question cases
are governed by federal law, while state privilege law
applies to purely state claims brought under diversity
jurisdiction. Id. Counterclaimants argue that because
this is a federal question action, federal common law
of privileges should govern these claims.
The Court holds that Federal Rule of Evidence 501
does not preclude application of Civil Code section 47
because section 47 is not an evidentiary privilege. Rule
501 applies to evidentiary privileges. See Dole v.
Milonas, 889 F.2d 885, 889 n.6 (9th Cir. 1989) (“F.R.
Evid. 501 provides that questions of evidentiary
privileges in federal cases are governed by federal
common law.”). Though California Civil Code section
47 refers to “privileges,” its effect is to provide
immunity from tort liability based on certain protected
conduct or speech. See Kimes v. Stone, 84 F.3d 1121,
1127 (9th Cir. 1996) (refusing to apply Cal. Civ. Code
§ 47(b) to a plaintiff’s § 1983 claim because state laws
that immunize government conduct are preempted);
Schneider v. Cnty of Sacramento, No. S-12-2457-KJM,
2013 WL 6623873, at *6–7 (E.D. Cal. Dec. 16, 2013)
(“Although short-hand reference to Civil Code § 47(b)
denominates it as a privilege, its effect is to limit

68a
liability or provide immunity from suits if its
requirements are met.”).
Counterclaimants also argue that even if federal
common law does not control here, California law does
not apply to their counterclaims because in cases of
federal question jurisdiction, federal common law
applies to choice of law determinations. However, the
Court exercises federal question and supplemental
jurisdiction. The Court applies California’s choice of
law rules because in federal question actions that
involve supplemental jurisdiction over state law
claims, courts apply the choice of law rules of the
forum state. Paulsen v. CNF, Inc., 559 F.3d 1061, 1080
(9th Cir. 2009). California follows a three-step analysis
in determining the correct choice of law:
First, we determine whether the two concerned states have different laws. Second, we
consider whether each state has an interest
in having its law applied to this case. Finally,
if the laws are different and each state has an
interest in having its own law applied, we
apply the law of the state whose interests
would be more impaired if its policy were
subordinated to the policy of the other state.
Id. (citing Havlicek v. Coast-to-Coast Analytical Servs.,
39 Cal. App. 4th 1844, 1851 (1995)).
Here, Counterclaimants have not established which
foreign law should apply, how those laws may differ
from California’s, or whether those states have an
interest in having their own laws applied to this case.
Because California has a paramount interest in the
freedom of speech uttered by its citizens within its
territory, the Court applies California’s privilege law.

69a
ii. Count Six
In count six, Wakaya alleges that Youngevity
tortuously interfered with contracts it maintained
with Rick Ansen and LiveWell by republishing its
defamatory allegations and thereby convincing them
to terminate their contracts. Youngevity argues
Wakaya cannot succeed on this claim because the
republication of the Verified Complaint is absolutely
protected speech under California’s litigation
privilege.
The litigation privilege, California Civil Code
§ 47(b)(2), provides an absolute defense to defamation
and all other torts except malicious prosecution.
Silberg v. Anderson, 50 Cal.3d 205, 212, 266 Cal.Rptr.
638, 786 P.2d 365 (1990). The privilege “applies to any
communication (1) made in judicial or quasi-judicial
proceedings; (2) by litigants or other participants
authorized by law; (3) to achieve the objects of the
litigation; and (4) that have some connection or logical
relation to the action.” Id.
The privilege exists “to afford litigants and
witnesses ... the utmost freedom of access to the courts
without fear of being harassed subsequently by
derivative tort actions.” Id. at 213, 266 Cal.Rptr. 638,
786 P.2d 365 (citations omitted). Notably, the privilege
“applies to any publication required or permitted by
law in the course of a judicial proceeding to achieve the
objects of the litigation, even though the publication is
made outside the courtroom and no function of the
court or its officers is involved.” Id. at 212, 266
Cal.Rptr. 638, 786 P.2d 365.
Additionally, the requisite “connection or logical
relation” between the communication and the litigation must be a “functional connection.” Rothman v.

70a
Jackson, 49 Cal.App.4th 1134, 1146, 57 Cal.Rptr.2d
284 (1996). The communication, whether it takes the
form of a court document, a letter from an attorney, or
a public statement, “must function as a necessary or
useful step in the litigation process and must serve its
purposes.” Id. Thus, the party asserting the privilege
must do more than show that the statement’s content
is related to the subject of the litigation. Id.
Moreover, the “objects of litigation” prong is limited
to legally cognizable ends and does not include a
general “desire to be vindicated in the eyes of the
world.” Id. at 1147–48, 57 Cal.Rptr.2d 284. Accordingly, “the litigation privilege should not be extended
to ‘litigating in the press’ ” because it does not advance
the purpose of the privilege—uninhibited access to the
courts—and it damages the justice system by poisoning jury pools and bringing the bench and bar into
disrepute. Id. at 1149, 57 Cal.Rptr.2d 284 (denying
application of the litigation privilege to attorney’s
statement made at a press conference accusing opposing counsel of engaging in extortion); see also Susan A.
v. County of Sonoma, 2 Cal.App.4th 88, 92, 95-96, 3
Cal.Rptr.2d 27 (1991) (denying application of the
litigation privilege to psychologist’s disclosure of his
impressions of his patient to a reporter).
The Court finds that the litigation privilege does not
apply to the republication of the Verified Complaint to
non-participating third parties. Here, the Counterclaim alleges that Youngevity republished its defamatory allegations to Rick Ansen. Though out-of-court
statements may fall within the protections of the
litigation privilege, here, there is no indication that
the republication to a non-participating party functioned as a necessary step in the litigation process. As
such, the litigation privilege does not apply to the

71a
republication of the Verified Complaint to nonparticipating third parties. The Court, therefore, turns
to Wakaya’s probability of prevailing.
Youngevity challenges this claim, arguing that
Wakaya has failed to plead an independent wrong.
However, Wakaya does not need to plead an independent wrong because it appears to be moving against
Youngevity for its alleged tortious interference with
contracts it had with Rick Ansen and LiveWell. The
Supreme Court of California has made it clear that
intentionally interfering with an existing contract is a
“wrong in of itself.” Korea Supply Co. v. Lockheed
Martin Corp., 29 Cal.4th 1134, 1158, 131 Cal.Rptr.2d
29, 63 P.3d 937 (2003) (internal citations omitted). As
such, unlike the tort of intentional interference with
a prospective economic advantage, which requires
pleading an independently wrongful act, the tort of
intentional interference with an existing contract does
not. Id. Accordingly, Wakaya has adequately pled
Youngevity’s tortious interference with existing contracts. See Quelimane Co. v. Stewart Title Guaranty
Co., 19 Cal.4th 26, 27, 77 Cal.Rptr.2d 709, 960 P.2d
513 (1998). Moreover, to the extent that Wakaya is
intending to plead a tortious interference with prospective economic advantage, because the republication of defamatory statements is not protected by any
privilege, it constitutes an independently wrongful
act. Therefore, Youngevity’s anti-SLAPP motion to
strike is DENIED as to count 6.
iii. Count Seven
Count seven depends, in part, on statements made
within the Verified Complaint, the press release, and
the republication of the Verified Complaint to nonparticipating third parties.

72a
To the extent the cause of action depends on the
actual statements made within the Verified Complaint, there is no dispute that they are protected
under the litigation privilege. Thus, Counterclaimants
could not prevail on these allegations and the Court
GRANTS Counterclaim Defendants’ anti-SLAPP
motion to strike any allegations regarding the statements directly made within the Verified Complaint.
As to the press release, Youngevity argues that
Counterclaimants cannot prevail because the press
release is protected under California’s litigation privilege and fair reporting privilege. The Court finds that
the press release is not protected by the litigation
privilege because immunity should not be extended to
“litigation in the press.” See Rothman, 49 Cal.App.4th
at 49, 56 Cal.Rptr.2d 595; see also GetFugu, Inc. v.
Patton Boggs, LLP, 220 Cal. App.4th 141, 154, 162
Cal.Rptr.3d 831 (2013) (“Dissemination of these
publications to a segment of the population as large as
the ‘investment community’ is essentially the same as
disclosure to the general public. If anyone with an
interest in the outcome of the litigation is a person to
whom a privileged communication could be made,
Silberg and Rothman would be eviscerated.”). As to
the fair reporting privilege, the Court finds that there
is a factual dispute that controls whether the privilege
applies. The fair reporting privilege provides a defense
for “a fair and true report in, or a communication to, a
public journal, of (A) a judicial, (B) legislative, or (C)
other public official proceeding, or (D) of anything said
in the course thereof, or (E) of a verified charge or
complaint made by any person to a public official, upon
which complaint a warrant has been issued.” Cal. Civil
Code § 47(d)(1). A newspaper and its website are
“‘public journal[s]’ within the meaning of this statute.”
Carver v. Bonds, 135 Cal.App.4th 328, 351, 37

73a
Cal.Rptr.3d 480 (2005) (citing Colt v. Freedom
Communications, Inc., 109 Cal.App.4th 1551, 1555,
1558, 1 Cal.Rptr.3d 245 (2003)). On October 18, 2017,
Counterclaimants filed a motion for leave to file a surreply brief. (ECF No. 238). In its papers, Counterclaimants allege that discovery has revealed that the
trade publication Youngevity forwarded its press
release to, BFH, is not a “public journal” within the
meaning of section 47(d). Counterclaimants argue that
because “Youngevity and BFH formed an ongoing
contractual relationship to promote Youngevity shortly before Wallach sent the Verified Complaint to
BFH,” BFH cannot constitute a “public journal.” (Id.
at 2.) Because this is a factual dispute that requires
additional briefing and in light of forthcoming motions
for summary judgment, the Court DENIES without
prejudice Counterclaim Defendant’s anti-SLAPP motion
as to the press release. The Court grants leave to raise
the issue in a motion for summary judgment.
Finally, as discussed above, the republication of the
Verified Complaint to non-participating parties is not
protected by the litigation privilege. Thus, the Court
turns to Counterclaimants’ probability of success.
To adequately state a claim for intentional interference with prospective economic advantage, a plaintiff
must plead: “(1) an economic relationship between the
plaintiff and some third party, with the probability of
future economic benefit to the plaintiff; (2) the defendant’s knowledge of the relationship; (3) intentional
acts on the part of the defendant designed to disrupt
the relationship; (4) actual disruption of that
relationship; and (5) economic harm to the plaintiff
proximately caused by the acts of the defendant.”
Korea Supply Co., 29 Cal.4th at 1153, 131 Cal.Rptr.2d
29, 63 P.3d 937. To recover, a plaintiff must also plead

74a
that the “defendant’s conduct was ‘wrongful’ by some
legal measure other than the fact of interference
itself.” Id. (citing Della Penna v. Toyota Motor Sales,
U.S.A., Inc., 11 Cal.4th 376, 393 (1995)). As to the
intent element, a plaintiff need only allege that the
defendant “knew that the interference was certain or
substantially certain to occur as a result of its action.”
Id. at 1154, 131 Cal.Rptr.2d 29, 63 P.3d 937.
Here, Counterclaimants allege that “Youngevity
and its agents have engaged in a concerted campaign
to smear and defame Wakaya....” (CC ¶ 197.)
Defamation is an independently wrongful act.
Therefore, Youngevity’s anti-SLAPP motion to strike
is DENIED as to the allegations of republishing the
Verified Complaint to non-participating parties.
iv. Counts Nine and Ten
Similar to count seven, counts nine and ten for
defamation and false light are based on statements
made within the Verified Complaint, the press release,
and the republication of the Verified Complaint among
other things. As discussed above, only the statements
directly contained within the Verified Complaint are
protected by California’s litigation privilege. As such,
to the extent these causes of action depend on those
allegations, Counterclaim Defendants’ anti-SLAPP
motion to strike is GRANTED. In regards to the press
release, for the same reasons stated above, the antiSLAPP motion is DENIED without prejudice as to
those allegations.
Finally, as to allegations concerning the republication of the Verified Complaint, the Court turns to
Counterclaimants’ probability of success.
Because when pleaded together, a false light claim
and defamation claim stand or fall together, the Court

75a
analyzes the sufficiency of these claims jointly. See
Eisenberg v. Alameda Newspapers, Inc., 74 Cal.
App.4th 1359, 1385 n.13, 88 Cal.Rptr.2d 802 (1999)
(“When a false light claim is coupled with a defamation
claim, the false light claim is essentially superfluous,
and stands or falls on whether it meets the same
requirements as the defamation cause of action.”).
Defamation “involves (1) a publication that is (b)
false, (c) defamatory, and (d) unprivileged, and that (e)
has a natural tendency to injure or that causes special
damage.” Taus v. Loftus, 40 Cal.4th 683, 720, 54
Cal.Rptr.3d 775, 151 P.3d 1185 (2007).
An action for false light invasion of privacy exists
when defendant “gives publicity to a matter concerning another that places the other before the public in
a false light ... if (a) the false light in which the other
was placed would be highly offensive to a reasonable
person, and (b) the actor had knowledge of or acted in
reckless disregard as to the falsity of the publicized
matter and the false light in which the other would be
placed.” Restatement Second of Torts § 652E; see also
Hill v. National Collegiate Athletic Assn., 7 Cal.4th 1,
24, 26 Cal.Rptr.2d 834, 865 P.2d 633 (1994) (“California common law has generally followed Prosser’s
classification of privacy interests as embodied in the
Restatement.”); Fellows v. National Enquirer, Inc., 42
Cal.3d 234, 238-39, 228 Cal.Rptr. 215, 721 P.2d 97
(1986) (recognizing the false light tort in California
and noting that the publication at issue need not be
defamatory, but often will be).
Here, the Counterclaimants have sufficiently alleged their claims and the Court cannot find as a
matter of law that Counterclaimants could not succeed
on their merits. Therefore, the anti-SLAPP motion is
DENIED as to the allegations concerning the repub-

76a
lication of the Verified Complaint to non-participating
parties.
v. Count Eleven
Count eleven is a cause of action for business
disparagement. To the extent this claim is based on
allegations concerning statements directly made within the Verified Complaint, the anti-SLAPP motion is
GRANTED and the allegations must be stricken. With
regard to the press release, for reasons already stated,
the anti-SLAPP motion is DENIED without prejudice.
Lastly, with reference to the allegations that
Youngevity republished the Verified Complaint to
non-participating parties, Wakaya is unable to show a
probability of success because it has failed to plead
special damages. See Choose Energy, Inc. v. API, 87
F.Supp.3d 1218, 1225 (N.D. Cal. 2015) (“If Plaintiffs
cannot plead a plausible cause of action under the Fed.
R. Civ. P. 12(b)(6) standard, then Plaintiffs as a matter
of law cannot meet the probability of success on the
merits standard under C.C.P. § 425.16.” (internal
citations omitted)).
Under California law, commercial disparagement or
trade libel “is defined as an intentional disparagement
of the quality of property, which results in pecuniary
damage to plaintiff.... Injurious falsehood, or disparagement, then, may consist of the publication of
matter derogatory to the plaintiff’s title to his
property, or its quality, or to his business in general....”
Nichols v. Great Am. Ins. Cos., 169 Cal. App.3d 766,
773, 215 Cal.Rptr. 416 (1985) (internal citations
omitted). A cause of action for trade libel requires
pleading and showing special damages in the form of
pecuniary loss. Leonardini v. Shell Oil, Co., 216 Cal.
App.3d 547, 572, 264 Cal.Rptr. 883 (1989). Addition-

77a
ally, under Federal Rule of Civil Procedure 9(g) a
plaintiff must state special damages with specificity.
A plaintiff must “identify particular customers and
transactions of which it was deprived as a result of the
libel.” Mann v. Quality Old Time Service, Inc., 120 Cal.
App.4th 90, 109, 15 Cal.Rptr.3d 215 (2004). Wakaya
contends that it has specifically pled special damages,
in particular as to the loss of its valuable business
relationship with LiveWell. While the claim does
incorporate by reference all 223 paragraphs that
precede it, the Court finds that this is insufficient to
satisfy the heightened pleading standard set forth
under Rule 9(g). Moreover, the claim complains of
“economic losses due to decreased sales and distributors who were deterred from associating with Wakaya.”
(CC ¶ 226.) This too is insufficient to satisfy the
heightened pleading standard. Therefore, Youngevity’s anti-SLAPP motion is GRANTED as to Count
11.
vi. Count Twelve
For the reasons already articulated above, to the
extent the twelfth cause of action under California’s
Unfair Competition laws is premised on statements
made directly within the Verified Complaint, the antiSLAPP motion is GRANTED and the allegations must
be stricken. As to the press release, the motion is
DENIED without prejudice. Finally, because the
allegations concerning the republications of the
Verified Complaint survive in relation to the other
claims, they survive as to this claim and the motion is
DENIED.

78a
2

B. Arbitration

The Federal Arbitration Act (“FAA”) permits “[a]
party aggrieved by the alleged failure, neglect, or
refusal of another to arbitrate under a written
agreement for arbitration [to] petition any United
States district court ... for an order directing that ...
arbitration proceed in the manner provided for in [the
arbitration] agreement. 9 U.S.C. § 4. “By its terms, the
[FAA] leaves no place for the exercise of discretion by
a district court, but instead mandates that district
courts shall direct the parties to proceed to arbitration
on issues as to which an arbitration agreement has
been signed.” Dean Witter Reynolds, Inc. v. Byrd, 470
U.S. 213, 218, 105 S.Ct. 1238, 84 L.Ed.2d 158 (1985)
(emphasis in original). Thus, arbitration agreements
“must be enforced, absent a ground for revocation of
the contractual agreement.” Id. A court’s role is
limited to “determining (1) whether a valid agreement
to arbitrate exists and, if it does, (2) whether the
agreement encompasses the dispute at issue.” Cox v.
Ocean View Hotel Corp., 533 F.3d 1114, 1119 (9th Cir.
2008) (citing Chiron Corp. v. Ortho Diagnostic Sys.,
207 F.3d 1126, 1130 (9th Cir. 2000)).
Youngevity moves to dismiss counterclaims one
through five in favor of arbitration. Underlying these
counterclaims is the Distributor Agreement entered
between Youngevity and former distributor Counterclaimants. Each Distributor Agreement contains an
arbitration provision that states:

2

Counterclaim Defendants also move to dismiss numerous
counterclaims because they were first filed in the District of
Utah. Because that court recently dismissed the complaint, this
argument is now moot. (See ECF No. 274, Ex. 1.)

79a
In the event of a dispute with the Company,
Distributor and the Company agree to participate in mediation in an earnest attempt to
resolve the dispute prior to submitting it to
binding arbitration pursuant to the Commercial Arbitration Rules then in effect of the
American Arbitration Association, provided,
however, that injunctive relief sought by the
Company against any party shall be excluded
from this clause. Such Arbitration shall occur
in San Diego, California. Louisiana Distributors, however, may arbitration in New
Orleans, Louisiana.
(CC, Ex. A, § J9.)
Counterclaimants argue that Youngevity cannot
now compel arbitration because the request is procedurally improper and alternatively, Youngevity has
waived its right to compel arbitration. The Court
discusses each argument below.
1. Notice
First, Counterclaimants argue that Youngevity’s
motion to compel arbitration should be denied because
it is procedurally improper as it did not comply with
the FAA’s notice requirements. Under section 4 of the
FAA, a “party aggrieved” by another’s failure to
arbitrate can petition the district court “for an order
directing that such arbitration proceed in the manner
provided for in such agreement. Five days’ notice in
writing of such application shall be served upon the
party in default.” 9 U.S.C. § 4.
Here, Counterclaimants argue that Youngevity has
failed to initiate arbitration or serve a proper demand
for arbitration in writing. However, in filing this
motion and allowing Counterclaimants more than five

80a
days to respond to the request for arbitration before
the motion’s hearing date, May 5, 2017, Youngevity
has complied with the procedures outlined by the FAA.
See Bridgeport Mgmt. v. Lake Mathews Mineral
Props., No. 14-cv-00070-JST, 2014 U.S. Dist. LEXIS
29813 at *6, 2014 WL 953831, at *3 (N.D. Cal. March
6, 2014) (“[T]he function of the FAA’s five-day notice
provision is to prevent courts from issuing an order
compelling arbitration without first affording the
respondent five days’ notice of the hearing.”); see also
Roque v. Applied Materials, Inc., No. 03-cv-1564-ST,
2004 U.S. Dist. LEXIS 10477 at *11, 2004 WL
1212110, at *4 (D. Or. Feb. 20, 2004) (“[T]he five day
notice period in § 4 of the FAA requires the party
opposing arbitration to be given five days’ notice before
a hearing is held regarding the application for
arbitration. It does not require that the party be given
give days’ notice from the date the application is
made.”).
2. Waiver
Alternatively, Counterclaimants argue that Youngevity has waived its right to arbitrate by initiating this
action and actively litigating for more than 18 months.
In the Ninth Circuit, “[t]he party arguing waiver of
arbitration bears a heavy burden of proof.” Britton v.
Co-op Banking Group, 916 F.2d 1405, 1412 (9th Cir.
1990) (internal citations omitted). To carry this
burden, the opposing party must show that the other
party (1) had knowledge of the right to compel
arbitration; (2) acted inconsistently with that right;
and (3) resulting prejudice. Id. Here, there is no
dispute that Youngevity had knowledge of its right to
compel arbitration. As such, the Court will focus on the
second and third elements.

81a
Counterclaimants argue that Youngevity has acted
inconsistently with the right to compel arbitration by
initiating this litigation. Youngevity, on the other
hand, argues that its initiation of this action does not
constitute waiver because its causes of action are not
covered by the arbitration provision, as they do not
require any construction of the Distributor Agreement. However, the language of the arbitration
provision is quite broad. Rather than limit arbitrable
claims to just those arising under the Distributor
Agreement, it instead calls for arbitration “[i]n the
event of a dispute with [Youngevity]....” (CC, Ex. A,
§ J9) (emphasis added). Unlike arbitration clauses
that are limited to claims “arising hereunder” or
“arising under the Agreement,” the arbitration
provision at issue here is not narrowly written. See
Mediterranean Enters. v. Ssangyong Corp., 708 F.2d
1458, 1464 (9th Cir. 1983) (“We have no difficulty
finding that ‘arising hereunder’ is intended to cover a
much narrower scope of the disputes, i.e., only those
relating to the interpretation and performance of the
contract itself.”). On its face, it appears to call for
arbitration in the event of any dispute with
Youngevity. While not all of Youngevity’s causes of
action fall within the scope of the arbitration clause,
certainly those claims that rest on the alleged wrongful conduct of Counterclaimants within their capacity
as Youngevity distributors would constitute arbitrable
claims.
The more difficult question then becomes whether
in filing these arbitrable claims did Youngevity act
inconsistent with its right to arbitrate Counterclaimants’ causes of action. Courts deciding whether a
plaintiff who brings suit on potentially arbitrable
claims waives his right to arbitrate a defendant’s counterclaims have generally only found waiver where the

82a
legal and factual issues in the original claims and
counterclaims are the same. See Gidatex, S.r.L. v.
Campaniello Imports, Ltd., 13 F.Supp.2d 420, 427–28
(S.D. N.Y. 1998) (“[A] plaintiff asserting an arbitrable
claim in federal court waives his right to demand arbitration of an adversary’s counterclaims only if the
parties’ claims present the ‘same legal and factual
issues.’ ” (citing Doctor’s Assocs. v. Distajo, 107 F.3d
126, 133 (2d. Cir. 1997)); see also MicroStrategy, Inc.
v. Lauricia, 268 F.3d 244, 250 (4th Cir. 2001) (finding
no waiver where defendant’s previous claims were
“distinct, both factually and legally” from plaintiff’s
current claims); RISO, Inc. v. Witt Co., 13-cv-02064,
2014 U.S. Dist. LEXIS 9297 at *23, 2014 WL 3371731,
at *9 (D. Or. July 9, 2014) (finding no waiver where
prior claims were related to violations of federal antitrust laws and current claims concerned fraudulent
conduct). Underlying many of Youngevity’s claims and
the counterclaims at issue is whether former distributor Counterclaimants engaged in cross-recruiting.
With respect to both parties’ claims, a trier of fact will
have to ultimately resolve whether former distributor
Counterclaimants engaged in cross-recruiting and
therefore unlawfully interfered with Youngevity’s
business relationships or whether they did not and
Youngevity wrongfully terminated their distributorships. Accordingly, by filing this action Youngevity
acted inconsistent with its right to compel arbitration.
Finally, the Court finds that Counterclaimants have
met their burden of establishing prejudice. See Martin
v. Yasuda, 829 F.3d 1118, 1125 (9th Cir. 2016) (“[I]n
order to establish prejudice, the plaintiffs must show
that, as a result of the defendants having delayed
seeking arbitration, they have incurred costs they
would not otherwise have incurred ... or that the
defendants have received an advantage from litigating

83a
in federal court that they would not have received in
arbitration.”). As Counterclaimants note, Youngevity
has been litigating both its own claims and the
counterclaims for more than 18 months, engaging in
extensive discovery and petitioning the Court for a
wide range of remedies. Undoubtedly, Youngevity has
benefited from discovery that it would not otherwise
have had automatic access to in arbitration. Thus, the
Court finds that Youngevity has waived its right to
arbitrate the first five counterclaims. As such, its
motion to dismiss is DENIED on this ground.
C. Motion to Dismiss
Counterclaim Defendants move dismiss counterclaims one, four, five, eight, eleven, and thirteen under
Federal Rule of Civil Procedure 12(b)(6)3. The Court
addresses each cause of action below.
1. Count One—Declaratory Judgment
Youngevity contends that the counterclaim for
declaratory judgment is moot and a request for an
impermissible advisory opinion. A court may only
enter declaratory judgment if there is an actual
controversy between the parties. See 28 U.S.C. § 2201;
Aetna Life Ins. Co. v. Haworth, 300 U.S. 227, 240, 57
S.Ct. 461, 81 L.Ed. 617 (1937). Thus, a district court
has no jurisdiction where there is no actual
controversy. Id.

3

Counterclaim Defendants also make 12(b)(6) arguments for
counts six, seven, nine and ten. However, because the Court has
already determined above that these claims have been sufficiently pled at least as to the “protected activity,” the Court need
not address the sufficiency of the merits as to the “unprotected
activity” allegations at this time. The issues may be raised in a
motion for summary judgment.

84a
While Youngevity submits that it no longer disputes
the application of California law and admits that its
policies and procedures allow individuals to be both
Youngevity and Wakaya distributors, its own pleadings create controversy. As Counterclaimants highlight, Youngevity grounds its own tortious interference claim on allegedly inviting Youngevity distributors “to consider becoming Wakaya distributors while
retaining their Youngevity distributor positions....”
(FAC ¶ 248.) Whether Counterclaimants did in fact
induce breaches of contract therefore turns on the
interpretation of these policies and procedures. Therefore, at least as to this issue a controversy still exists.
As such, Youngevity’s motion to dismiss the first
counterclaim is DENIED.
2. Count Four—Conversion
Youngevity moves the Court to dismiss Counterclaimants’ fourth claim for conversion, arguing that
they have insufficiently identified a specific, identifiable sum of money.
Under California law, “[c]onversion is the wrongful
exercise of dominion over the property of another.”
Mindys Cosmetics, Inc. v. Dakar, 611 F.3d 590, 601
(9th Cir. 2010). To establish conversion, a plaintiff
must demonstrate: “(1) [his or her] ownership or right
to possession of the property at the time of the
conversion; (2) the defendant’s conversion by a
wrongful act or disposition of property rights; and (3)
damages.” Id. “Money cannot be the subject of a cause
of action for conversion unless there is a specific,
identifiable sum involved....” PCO, Inc. v. Christensen,
Miller, Fink, Jacobs, Glaser, Weil & Shapiro, LLC, 150
Cal. App.4th 384, 395, 58 Cal.Rptr.3d 516 (2007).
However, it is unnecessary that “each coin or bill be
earmarked.” Fischer v. Machado, 50 Cal. App.4th

85a
1069, 1072, 58 Cal.Rptr.2d 213 (1996). At the pleading
stage in federal court, it is only necessary for a plaintiff
to allege an amount of money that is “capable of
identification,” rather than specifically identify the
sum that would be required to prove the claim in a
motion for summary judgment. Natomas Gardens Inv.
Group v. Sinadinos, 710 F.Supp.2d 1008, 1019–20
(E.D. Cal. 2010). Here, Counterclaimants have alleged
that Youngevity wrongfully terminated distributor
Counterclaimants and has withheld their commission
checks. Counterclaimants have, therefore, sufficiently
pled an amount of money that is capable of identification. Thus, Youngevity’s motion to dismiss this claim
is DENIED.
3. Count Five—Tortious Interference with
Existing Economic Relations
As to count five, Youngevity argues that to the
extent Counterclaimants wish to plead tortious interference with contractual relations, the Court should
dismiss the claim because a party to the contract
cannot be liable for interfering with its own contract.
To the extent that this is the harm Counterclaimants
seek to redress, the Court agrees. See Applied Equipment Corp. v. Litton Saudi Arabia Ltd., 7 Cal.4th 503,
521, 28 Cal.Rptr.2d 475, 869 P.2d 454 (1994) (“One
contracting party owes no general tort duty to another
not to interfere with performance of the contract; its
duty is simply to perform the contract according to its
terms. The tort duty not to interfere with the contract
falls only on strangers—interlopers who have no
legitimate interest in the scope or course of the
contract’ performance.”).
However, Counterclaimants contend that Youngevity is misconstruing the claim because they instead
seek to recover for the alleged interference with the

86a
economic relationships they had established with
distributors in their downlines. While the tort is
generally known as intentional interference with prospective contractual relationships or economic advantage, courts have sometimes referred to it as
“interference with economic relations.” See Della
Penna v. Toyota Motor Sales, U.S.A., Inc., 11 Cal.4th
376, 381, n.2, 45 Cal.Rptr.2d 436, 902 (P.2d 740 1995).
At its core the tort seeks to protect economic relationships short of contractual that contain a probable
future economic benefit. See Korea Supply Co., 29
Cal.4th at 1153, 131 Cal.Rptr.2d 29, 63 P.3d 937.
Nevertheless, the claim fails because it sounds in
contract, not tort.
The Court in JRS Products, Inc. v. Matsushita
Electric Corp. of America, 115 Cal. App.4th 168, 179, 8
Cal.Rptr.3d 840 (2004), addressed this exact issue—
“whether damages can be recovered for interference
with prospective economic advantage by one contracting party against another based on conduct that would
otherwise constitute a breach of the parties’ contract.”
The court answered in the negative grounding its
reasoning in the principle that “a party to a contract
cannot recover damages in tort for breach of contract.”
Id. In evaluating these claims, the proper question for
courts to determine is “whether the essence of the
claim is fundamentally based on conduct that sounds
in contract or in tort.” Id. at 181, 8 Cal.Rptr.3d 840.
Here, the Court finds that “the essential nature of the
conduct sounds in contract,” as the principal conduct
Counterclaimants complain of is Youngevity wrongfully terminating their distributorships. See id. at 182,
8 Cal.Rptr.3d 840. Youngevity’s motion to dismiss this
claim is, therefore, GRANTED.

87a
4. Count Eight—Tortious Interference with
Prospective Economic Advantage
Counterclaim Defendants move to dismiss count
eight for tortious interference with prospective economic advantage, arguing that Counterclaimants
have failed to plead a wrongful act independent of the
interference itself. Counterclaimants, on the other
hand, argue that Briskie and Steve Wallach’s misrepresentation to the prospective buyer of Graham and
TNT’s media assets was independently wrongful. The
Counterclaim alleges that Briskie and Steve Wallach,
without having a legal right to do so, “informed the
buyer that they would not approve of the sale if any
proceeds from the sale would flow to either Graham or
Smith.” (CC ¶ 204.) This alleged misrepresentation to
the prospective buyer constitutes an independently
wrongful act. In its reply, Counterclaim Defendants
argues that Steve Wallach’s and Briskie’s representation to a potential purchaser is not independently
wrongful because “the Court already held that TNT
cannot make commercial use of those assets without
Youngevity’s consent....” (Countercl. Def.s’ Reply, 10.)
Counterclaim Defendants mischaracterize the Court’s
holding. First, a Court’s ruling in an order granting
preliminary injunction is not a final determination of
rights. Second, the Court never held that TNT cannot
make a sale without Youngevity’s consent4. As such,
Counterclaim Defendants’ motion to dismiss this
claim is DENIED.
4

“If Defendants notify any purchaser of this litigation and
receive written assurances from the purchaser that its operation
of the Assets would be lawful, then equity would require allowing
such a sale. Therefore, any sale and/or transfer that conforms
with this order is not prohibited by the Injunction. Any noncomplaint sale will be grounds for contempt.” (Ct. Order, ECF No. 53.)

88a
5. Count Eleven—Business Disparagement
Because in evaluating the anti-SLAPP motion above
the Court only focused on the sufficiency of the claim
in regard to allegations based on “protected activity,”
the Court here looks to the sufficiency of the claim as
it relates to “unprotected activity,” such as trade libel
based on Dr. Wallach’s statements about Smith and
Graham and Steve Wallach’s email. Nevertheless, the
Court GRANTS Youngevity’s motion to dismiss this
claim because it insufficiently alleges special damages
under Rule 9(g). However, the Court grants Wakaya
leave to amend its pleadings so as to comply with the
heightened pleading standards.
6. Count Thirteen—Fraud/Negligent Misrepresentation
Lastly, Counterclaim Defendants move to dismiss
the counterclaim for fraudulent and negligent
misrepresentation.
To state a claim for fraudulent misrepresentation, a
plaintiff must allege: (1) a misrepresentation; (2)
knowledge of falsity; (3) intent to defraud or induce
reliance; (4) justifiable reliance; and (5) resulting
damage. Lazar v. Superior Court, 12 Cal.4th 631, 638,
49 Cal.Rptr.2d 377, 909 P.2d 981 (1996). Federal Rule
of Civil Procedure 9(b) requires that these facts be
alleged with particularity. Fed. R. Civ. Proc. 9(b). “The
elements of negligent misrepresentation are similar
to intentional fraud except for the requirement of
scienter; in a claim for negligent misrepresentation,
the plaintiff need not allege the defendant made an
intentionally false statement, but simply one as to
which he or she lacked any reasonable ground for
believing the statement to be true.” Charnay v. Cobert,
145 Cal. App.4th 170, 184, 51 Cal.Rptr.3d 471 (2006).

89a
Counterclaim Defendants argue that Counterclaimants fail to plead intent and reliance. As to intent,
Counterclaimants allege that “Smith specifically
verified with Briskie and Steve Wallach that Youngevity had obtained the required regulatory approvals
to distribute its product in Mexico.” (CC ¶ 57.) They
further allege that Smith informed Briskie and Steve
Wallach of his intentions to begin establishing
Youngevity distributorships in Mexico and that at no
point did they correct his “express understanding that
Youngevity had completed all of the requirements to
conduct business in Mexico.” (Id. at ¶¶ 58–59.)
Counterclaimants allege that Briskie intended for
Smith and other Youngevity distributors to rely on his
statements. (Id. at ¶ 243.) As to the reliance element,
Counterclaimants allege that the misrepresentation
was reasonably relied upon given Briskie’s position as
Chief Financial Officer of Youngevity and the officer
in charge of international expansion. (Id. at ¶ 244.)
Construing the facts in the light most favorable to
Counterclaimants, the Court finds that both intent
and reliance are adequately pled. Accordingly, Counterclaim Defendants’ motion to dismiss this claim is
III. CONCLUSION
For the reasons discussed above, Counterclaim
Defendants’ anti-SLAPP motion is GRANTED in part
and DENIED in part. To the extent claims six, seven,
and nine through twelve are based on allegations
concerning statements directly made within the
Verified Complaint, the motion is GRANTED and
those allegations are ordered to be stricken. The antiSLAPP motion is also granted as to count eleven,
which must also be stricken from the Counterclaim.
Counterclaim Defendant’s 12(b)(6) motion to dismiss is GRANTED as to counts five and eleven and

90a
DENIED as the remaining causes of action. Counterclaimants are granted leave to amend counts five
and eleven. Counterclaimants must file an amended
counterclaim within 14 days of the entry of this order.
Finally, Counterclaimants’ motion to file a sur-reply
brief (ECF No. 238) is DENIED but the Court has
considered the motion herein.
IT IS SO ORDERED.

91a
APPENDIX D
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
[Filed 07/16/18]
————
Case No.: 16-CV-704-BTM-JLB
————
YOUNGEVITY INTERNATIONAL, et al.,
Plaintiff,
v.
TODD SMITH, et al.,
————

Defendant.

ORDER GRANTING MOTION FOR
PARTIAL STAY [ECF No. 412]
On January 4, 2018, Plaintiffs and Counterclaim
Defendants Youngevity International, Inc., Steve
Wallach, Michelle Wallach, Dave Briskie, and Dr. Joel
D. Wallach (collectively “Counterclaim Defendants”)
filed a motion for a partial stay of the proceedings
pending their interlocutory appeal of this Court’s
December 13, 2017 decision. (ECF No. 412) The Court
grants the motion to stay for the reasons discussed
below.
DISCUSSION
Both parties agree that under California law, an
appeal of a denial of an anti-SLAPP motion automatically stays further trial court proceedings on causes of
action related to the motion. Varian Med. Sys. v.
Delfino, 35 Cal.4th 180, 186 (2005). However, there is
no automatic stay for “ancillary or collateral matters

92a
which do not affect the judgment or order on appeal
even though the proceedings may render the appeal
moot.” Makaeff v. Trump Univ., LLC, 10-cv-940-IEG,
2011 WL 613571, at *2 (S.D. Cal. Feb. 11, 2011) (citing
Varian Med. Sys., 35 Cal.4th at 191). Thus, the Court
grants Counterclaim Defendants’ motion and hereby
immediately stays counterclaims six, seven, nine, ten,
eleven, and twelve. As to the remaining counterclaims
and affirmative causes of action, Counterclaim Defendants are not entitled to an automatic stay because
they are not subject to an anti-SLAPP appeal.
Nevertheless, it remains within the Court’s discretion to grant a stay for the remaining claims. See
Leyva v. Certified Grocers of Ca., Ltd., 593 F.2d 857,
863 (9th Cir. 1979). While the filing of an interlocutory
appeal does not automatically stay the proceedings, a
district court has broad discretion to decide whether a
stay is appropriate to “promote economy of time and
effort for itself, for counsel, and for litigants.” Filtrol
Corp. v. Kelleher, 467 F.2d 242, 244 (9th Cir. 1972). “A
trial court may, with propriety, find it is efficient for
its own docket and the fairest course for the parties to
enter a stay of an action before it, pending resolution
of independent proceedings which bear upon the case.”
Leyva, 593 F.2d at 863.
Counterclaim Defendants urge the Court to stay the
remaining counterclaims, or at the very least, counterclaims one through four which are also at issue in the
interlocutory appeal because they are allegedly subject
to arbitration. The Ninth Circuit’s ruling may have a
significant effect on this Court’s disposition of those
counterclaims and a stay may save the Court and
the parties from unnecessary litigation. Additionally,
because an interlocutory appeal is already pending,
the Court does not find that a stay of claims one

93a
through four would cause Counterclaimants any prejudice. Accordingly, the Court grants Counterclaim
Defendants an immediate stay of claims one through
four.
The Court will rule on the remaining motions for
summary judgment for Plaintiffs’ and Counterclaim
Defendants’ affirmative claims and counterclaims
eight and thirteenth However pursuant to this Court’s
power to control its own docket and with considerations of judicial economy in mind, the Court will then
stay the entire case until the Ninth Circuit’s resolution
so that all causes of action proceed to trial together.
See Leyva, 593 F.2d at 864.
CONCLUSION
For the reasons discussed above, the Court
GRANTS Plaintiffs’ and Counterclaim Defendants’
motion for a partial stay of the proceedings. (ECF No.
412.) The motions for summary judgment for counterclaims one through four, six, seven, and nine
through twelve are DENIED as premature, as well as
the related Daubert motions. (ECF Nos. 418–419, 421–
431, 433, 435, 437–438, 441, 444–445.) The parties are
granted leave to resubmit their motions depending on
the judgment of the Ninth Circuit. Within thirty days
of the Ninth Circuit’s resolution of the appeal, the
parties shall file a joint status report informing the
Court of the status of this matter.
IT IS SO ORDERED.
Dated: July 16, 2018
/s/ Barry Ted Moskowitz
Barry Ted Moskowitz, Chief Judge
United States District Court

94a
APPENDIX E
749 Fed.Appx. 634 (Mem)
UNITED STATES COURT OF APPEALS,
NINTH CIRCUIT
————
No. 18-55031
————
YOUNGEVITY INTERNATIONAL CORP.; et al.,
Plaintiffs-counter-claimdefendants-Appellants,
v.
WILLIAM ANDREOLI; et al.,
Defendants-counter-claimantsplaintiffs-Appellees.
————
Appeal from the United States District Court for
the Southern District of California,
Barry Ted Moskowitz, Chief Judge, Presiding,
D.C. No. 3:16-cv-00704-BTM-JLB
————
Argued and Submitted December 3, 2018
Pasadena, California
Filed January 24, 2019
————
Attorneys and Law Firms
Peter Ayer Arhangelsky, Joshua Scott Furman,
Emord & Associates, PC, Gilbert, AZ, Corrie Jean
Klekowski, Attorney, Paul, Plevin, Sullivan &

95a
Connaughton LLP, San Diego, CA, Jonathan W.
Emord, Esquire, Attorney, Emord & Associates, P.C.,
Clifton, VA, for Plaintiffs-counter-claim-defendantsAppellants
Jonathan O. Hafen, Cynthia Love, Parr Brown Gee &
Loveless, PC, Salt Lake City, UT, Kyle Van Dyke,
Attorney, Van Dyke Law, San Diego, CA, for
Defendants-counter-claimant-plaintiffs-Appellees
MEMORANDUM
Before: TASHIMA and IKUTA, Circuit Judges, and
KENNELLY, District Judge.
Youngevity International Corporation appeals the
partial denial of its special motion to strike some of
Wakaya Corporation’s counterclaims to Youngevity’s
complaint. See Cal. Civ. Proc. Code § 425.16. Youngevity also appeals the district court’s denial of Youngevity’s motion to dismiss certain counterclaims on the
ground they are subject to an arbitration provision in
Youngevity’s distributor agreement. We have jurisdiction under 28 U.S.C. § 1291, see Batzel v. Smith, 333
F.3d 1018, 1024 (9th Cir. 2003) (holding that the
denial of an anti-SLAPP motion is appealable under
§ 1291) and 9 U.S.C. § 16(a)(1) (permitting appeal from
the denial of a motion to compel arbitration).1


This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.


The Honorable Matthew F. Kennelly, United States District
Judge for the Northern District of Illinois, sitting by designation.
1

Because exhibits one through six of Wakaya’s supplemental
excerpts of record were not before the district court at the time of
its December 13, 2017 order, see Lowry v. Barnhart, 329 F.3d
1019, 1024 (9th Cir. 2003), we GRANT Youngevity’s motion to
strike those exhibits. To the extent Youngevity moves to strike
arguments in Wakaya’s pleadings, however, that motion is

96a
We reject Youngevity’s argument that Wakaya’s
counterclaims must be struck in their entirety because
they are based on statements by Youngevity that are
protected by section 425.16. Because California courts
review each statement within a pleading, and strike
only protected statements, see Baral v. Schnitt, 1 Cal.
5th 376, 390–92, 205 Cal.Rptr.3d 475, 376 P.3d 604
(2016), we separately consider each statement that
Youngevity argues is protected under section 425.16.
We lack jurisdiction to review the district court’s
determination that Joel Wallach’s oral statements,
Steve Wallach’s email, and Michelle Wallach’s alleged
emails constitute commercial speech and therefore are
not protected by the anti-SLAPP statute. See Cal. Civ.
Proc. Code § 425.17(c). Such a determination is not
subject to interlocutory review. See Cal. Civ. Proc.
Code § 425.17(e); Breazeale v. Victim Servs., 878 F.3d
759, 766 (9th Cir. 2017).
We reverse the district court’s decision not to strike
those portions of Wakaya’s counterclaims based on the
republication of the Verified Complaint and the
Youngevity press release, which summarized the
substance of the Verified Complaint. California’s
litigation privilege applies to communications made in
judicial proceedings, see Cal. Civ. Code § 47(b), and
extends to communications regarding such judicial
proceedings made to people with “a substantial
interest in the outcome of the pending litigation,” see
Abraham v. Lancaster Cmty. Hosp., 217 Cal. App. 3d
796, 823, 266 Cal.Rptr. 360 (1990); see also Argentieri
v. Zuckerberg, 8 Cal. App. 5th 768, 783–84, 214
DENIED. We also DENY Wakaya’s motion to supplement the
record on appeal with excerpts from a deposition that were not
before the district court. See id.

97a
Cal.Rptr.3d 358 (2017) (indicating that the litigation
privilege protects statements made to persons with
a “substantial interest” in the litigation, but not
statements made to “the general public through the
press”). For this reason, the republication of the
Verified Complaint and the dissemination of the
Youngevity press release to its distributors and the
marketing community (which had such a substantial
interest) constitute protected speech. 2 Therefore, to
the extent Wakaya’s counterclaims are based on the
republication of the Verified Complaint and Youngevity’s press release, Wakaya cannot carry its burden
of showing there is a probability that it will prevail on
those claims, see Cal. Civ. Proc. Code § 425.16(b).
Finally, we affirm the district court’s denial of
Youngevity’s motion to dismiss or compel arbitration.
Youngevity litigated its own claims that were based on
the same factual nexus as Wakaya’s claims for
eighteen months before seeking to compel arbitration.
Because Youngevity acted inconsistently with the
arbitration provision in its distributor agreement, and
this inconsistent conduct was prejudicial to Wakaya,
Wakaya carried its burden of proving that Youngevity
waived its right to arbitrate. See Britton v. Co-op
Banking Grp., 916 F.2d 1405, 1412 (9th Cir. 1990).
Each party shall bear its own costs on appeal.
DISMISSED IN PART, AFFIRMED IN PART,
REVERSED IN PART.

2

Because we decide on this ground, we do not reach the
district court’s ruling that there is a factual dispute as to whether
BFH constituted a “public journal” for purposes of the fair
reporting privilege, see Cal. Civ. Code § 47(d), nor do we need
define the term “public journal” under California law.

98a
APPENDIX F
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
[Filed 4/1/2019]
————
No. 18-55031
————
YOUNGEVITY INTERNATIONAL CORP.; et al.,
Plaintiffs-counter-claimdefendants-Appellants,
v.
WILLIAM ANDREOLI; et al.,
Defendants-counter-claimantsplaintiffs-Appellees.
————
D.C. No. 3:16-cv-00704-BTM-JLB
Southern District of California, San Diego
————
ORDER
Before: TASHIMA and IKUTA, Circuit Judges, and
KENNELLY, District Judge.
Judge Ikuta voted to deny the petition for rehearing
en banc and Judge Tashima and Judge Kennelly so
recommended. The petition for rehearing en banc was
circulated to the judges of the court, and no judge
requested a vote for en banc consideration.
The petition for rehearing en banc (Doc. 49) is
DENIED.


The Honorable Matthew F. Kennelly, United States District
Judge for the Northern District of Illinois, sitting by designation.

99a
APPENDIX G
United States Code Annotated
Title 28. Judiciary and Judicial Procedure
(Refs & Annos)
Part IV. Jurisdiction and Venue (Refs & Annos)
Chapter 83. Courts of Appeals (Refs & Annos)
28 U.S.C.A. § 1291
Currentness
§ 1291. Final decisions of district courts
The courts of appeals (other than the United States
Court of Appeals for the Federal Circuit) shall have
jurisdiction of appeals from all final decisions of the
district courts of the United States, the United States
District Court for the District of the Canal Zone, the
District Court of Guam, and the District Court of the
Virgin Islands, except where a direct review may be
had in the Supreme Court. The jurisdiction of the
United States Court of Appeals for the Federal Circuit
shall be limited to the jurisdiction described in
sections 1292(c) and (d) and 1295 of this title.
CREDIT(S)
(June 25, 1948, c. 646, 62 Stat. 929; Oct. 31, 1951, c.
655, § 48, 65 Stat. 726; Pub.L. 85-508, § 12(e), July 7,
1958, 72 Stat. 348; Pub.L. 97-164, Title I, § 124, Apr.
2, 1982, 96 Stat. 36.)

100a
APPENDIX H
West’s Annotated California Codes
Code of Civil Procedure (Refs & Annos)
Part 2. Of Civil Actions (Refs & Annos)
Title 6. Of the Pleadings in Civil Actions
Chapter 2. Pleadings Demanding Relief
(Refs & Annos)
Article 1. General Provisions (Refs & Annos)
West’s Ann.Cal.C.C.P. § 425.16
Effective: January 1, 2015
Currentness
§ 425.16. Anti-SLAPP motion
(a) The Legislature finds and declares that there has
been a disturbing increase in lawsuits brought primarily to chill the valid exercise of the constitutional
rights of freedom of speech and petition for the redress
of grievances. The Legislature finds and declares that
it is in the public interest to encourage continued
participation in matters of public significance, and
that this participation should not be chilled through
abuse of the judicial process. To this end, this section
shall be construed broadly.
(b)(1) A cause of action against a person arising from
any act of that person in furtherance of the person’s
right of petition or free speech under the United States
Constitution or the California Constitution in connection with a public issue shall be subject to a special
motion to strike, unless the court determines that the
plaintiff has established that there is a probability
that the plaintiff will prevail on the claim.
(2) In making its determination, the court shall
consider the pleadings, and supporting and opposing

101a
affidavits stating the facts upon which the liability or
defense is based.
(3) If the court determines that the plaintiff has
established a probability that he or she will prevail on
the claim, neither that determination nor the fact of
that determination shall be admissible in evidence at
any later stage of the case, or in any subsequent
action, and no burden of proof or degree of proof
otherwise applicable shall be affected by that
determination in any later stage of the case or in any
subsequent proceeding.
(c)(1) Except as provided in paragraph (2), in any
action subject to subdivision (b), a prevailing defendant on a special motion to strike shall be entitled to
recover his or her attorney’s fees and costs. If the court
finds that a special motion to strike is frivolous or is
solely intended to cause unnecessary delay, the court
shall award costs and reasonable attorney’s fees to a
plaintiff prevailing on the motion, pursuant to Section
128.5.
(2) A defendant who prevails on a special motion to
strike in an action subject to paragraph (1) shall not
be entitled to attorney’s fees and costs if that cause of
action is brought pursuant to Section 6259, 11130,
11130.3, 54960, or 54960.1 of the Government Code.
Nothing in this paragraph shall be construed to prevent a prevailing defendant from recovering attorney’s
fees and costs pursuant to subdivision (d) of Section
6259, or Section 11130.5 or 54960.5, of the Government Code.
(d) This section shall not apply to any enforcement
action brought in the name of the people of the State
of California by the Attorney General, district attorney, or city attorney, acting as a public prosecutor.

102a
(e) As used in this section, “act in furtherance of a
person’s right of petition or free speech under the
United States or California Constitution in connection
with a public issue” includes: (1) any written or oral
statement or writing made before a legislative, executive, or judicial proceeding, or any other official
proceeding authorized by law, (2) any written or oral
statement or writing made in connection with an issue
under consideration or review by a legislative, executive, or judicial body, or any other official proceeding
authorized by law, (3) any written or oral statement or
writing made in a place open to the public or a public
forum in connection with an issue of public interest, or
(4) any other conduct in furtherance of the exercise of
the constitutional right of petition or the constitutional right of free speech in connection with a public
issue or an issue of public interest.
(f) The special motion may be filed within 60 days of
the service of the complaint or, in the court’s discretion, at any later time upon terms it deems proper. The
motion shall be scheduled by the clerk of the court for
a hearing not more than 30 days after the service of
the motion unless the docket conditions of the court
require a later hearing.
(g) All discovery proceedings in the action shall be
stayed upon the filing of a notice of motion made
pursuant to this section. The stay of discovery shall
remain in effect until notice of entry of the order ruling
on the motion. The court, on noticed motion and for
good cause shown, may order that specified discovery
be conducted notwithstanding this subdivision.
(h) For purposes of this section, “complaint” includes
“cross-complaint” and “petition,” “plaintiff” includes
“cross-complainant” and “petitioner,” and “defendant”
includes “cross-defendant” and “respondent.”

103a
(i) An order granting or denying a special motion to
strike shall be appealable under Section 904.1.
(j)(1) Any party who files a special motion to strike
pursuant to this section, and any party who files an
opposition to a special motion to strike, shall, promptly
upon so filing, transmit to the Judicial Council, by email or facsimile, a copy of the endorsed, filed caption
page of the motion or opposition, a copy of any related
notice of appeal or petition for a writ, and a conformed
copy of any order issued pursuant to this section,
including any order granting or denying a special
motion to strike, discovery, or fees.
(2) The Judicial Council shall maintain a public record
of information transmitted pursuant to this subdivision for at least three years, and may store the
information on microfilm or other appropriate electronic media.
Credits
(Added by Stats.1992, c. 726 (S.B.1264), § 2. Amended
by Stats.1993, c. 1239 (S.B.9), § 1; Stats.1997, c. 271
(S.B.1296), § 1; Stats.1999, c. 960 (A.B.1675), § 1, eff.
Oct. 10, 1999; Stats.2005, c. 535 (A.B.1158), § 1, eff.
Oct. 5, 2005; Stats.2009, c. 65 (S.B.786), § 1;
Stats.2010, c. 328 (S.B.1330), § 34; Stats.2014, c. 71
(S.B.1304), § 17, eff. Jan. 1, 2015.)

